<html>
<title> - THE TSA WORKFORCE CRISIS: A HOMELAND SECURITY RISK</title>
<body><pre>[House Hearing, 116 Congress]
[From the U.S. Government Publishing Office]


           THE TSA WORKFORCE CRISIS: A HOMELAND SECURITY RISK

=======================================================================

                                HEARING

                               BEFORE THE

                            SUBCOMMITTEE ON
                           TRANSPORTATION AND
                           MARITIME SECURITY

                                 OF THE

                     COMMITTEE ON HOMELAND SECURITY
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED SIXTEENTH CONGRESS

                             FIRST SESSION

                               __________

                              MAY 21, 2019

                               __________

                           Serial No. 116-21

                               __________

       Printed for the use of the Committee on Homeland Security
                                     

[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]                                     

        Available via the World Wide Web: http://www.govinfo.gov

                               __________

                  U.S. GOVERNMENT PUBLISHING OFFICE                    
37-867 PDF                  WASHINGTON : 2019                     
          
--------------------------------------------------------------------------------------



                     COMMITTEE ON HOMELAND SECURITY

               Bennie G. Thompson, Mississippi, Chairman
Sheila Jackson Lee, Texas            Mike Rogers, Alabama
James R. Langevin, Rhode Island      Peter T. King, New York
Cedric L. Richmond, Louisiana        Michael T. McCaul, Texas
Donald M. Payne, Jr., New Jersey     John Katko, New York
Kathleen M. Rice, New York           John Ratcliffe, Texas
J. Luis Correa, California           Mark Walker, North Carolina
Xochitl Torres Small, New Mexico     Clay Higgins, Louisiana
Max Rose, New York                   Debbie Lesko, Arizona
Lauren Underwood, Illinois           Mark Green, Tennessee
Elissa Slotkin, Michigan             Van Taylor, Texas
Emanuel Cleaver, Missouri            John Joyce, Pennsylvania
Al Green, Texas                      Dan Crenshaw, Texas
Yvette D. Clarke, New York           Michael Guest, Mississippi
Dina Titus, Nevada
Bonnie Watson Coleman, New Jersey
Nanette Diaz Barragan, California
Val Butler Demings, Florida
                       Hope Goins, Staff Director
                 Chris Vieson, Minority Staff Director
                                 
                                 ------                                

          SUBCOMMITTEE ON TRANSPORTATION AND MARITIME SECURITY

                  J. Luis Correa, California, Chairman
Emanuel Cleaver, Missouri            Debbie Lesko, Arizona, Ranking 
Dina Titus, Nevada                       Member
Bonnie Watson Coleman, New Jersey    John Katko, New York
Nanette Diaz Barragan, California    John Ratcliffe, Texas
Val Butler Deming, Florida           Mark Green, Tennessee
Bennie G. Thompson, Mississippi (ex  Mike Rogers, Alabama (ex officio)
    officio)
                Alex Marston, Subcomittee Staff Director
            Kyle Klein, Minority Subcomittee Staff Director
                            
                            
                            C O N T E N T S

                              ----------                              
                                                                   Page

                               Statements

The Honorable J. Luis Correa, a Representative in Congress From 
  the State of California, and Chairman, Subcommittee on 
  Transportation and Maritime Security:
  Oral Statement.................................................     1
  Prepared Statement.............................................     2
The Honorable Debbie Lesko, a Representative in Congress From the 
  State of Arizona, and Ranking Member, Subcommittee on 
  Transportation and Maritime Security:
  Oral Statement.................................................     3
  Prepared Statement.............................................     5
The Honorable Bennie G. Thompson, a Representative in Congress 
  From the State of Mississippi, and Chairman, Committee on 
  Homeland Security:
  Oral Statement.................................................     5
  Prepared Statement.............................................     6

                               Witnesses

Mr. John V. Kelly, Acting Inspector General, Department of 
  Homeland Security:
  Oral Statement.................................................     7
  Prepared Statement.............................................     8
Mr. J. David Cox, National President, American Federation of 
  Government Employees, AFL-CIO:
  Oral Statement.................................................    14
  Prepared Statement.............................................    15
Mr. Lance Lyttle, Managing Director, Aviation Division, Port of 
  Seattle:
  Oral Statement.................................................    21
  Prepared Statement.............................................    22
Mr. Jeffrey Neal, Senior Vice President, ICF:
  Oral Statement.................................................    24
  Prepared Statement.............................................    26

 
           THE TSA WORKFORCE CRISIS: A HOMELAND SECURITY RISK

                              ----------                              


                         Tuesday, May 21, 2019

             U.S. House of Representatives,
                    Committee on Homeland Security,
                            Subcommittee on Transportation 
                                     and Maritime Security,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 10:02 a.m., in 
room 310, Cannon House Office Building, Hon. J. Luis Correa 
[Chairman of the subcommittee] presiding.
    Present: Representatives Correa, Cleaver, Barragan, 
Demings, Thompson, Lesko, and Katko.
    Mr. Correa. Good morning, everyone. The Subcommittee on 
Transportation and Maritime Security now comes to order. The 
committee is meeting today to receive testimony on the TSA 
Workforce Crisis, a Homeland Security Risk. I want to thank our 
Ranking Member, Mrs. Lesko, and our panel of witnesses who are 
joining us today.
    In today's hearing, we will discuss the challenges facing 
TSA, the workforce, and how they impact TSA's National security 
mission. We are very aware of the threats facing our country 
and our transportation system. Terrorists, lone wolves, and 
other threat actors continue to target crowded airports, mass 
transit hubs, air carriers, with the ultimate goal of taking 
down one of our airplanes. TSA has no fail-safe mission. A 
single bomb or weapon slipping through our security could be 
used with devastating effects.
    Transportation officers, or TSOs, work on the front line as 
our country's main defenders against these threats. Their jobs 
are extremely difficult, as they must work to look for a needle 
in a haystack in overstuffed bags, pat down passengers in very 
uncomfortable areas, detect fraudulent IDs, and keep pace with 
the evolving policies and technologies, all while serving as 
the face of Government to sometimes uncooperative passengers.
    Ensuring that TSA hires, trains, retrains professional 
workers should be one of the Department of Homeland Security's 
top priorities. Unfortunately, the administration has placed 
supporting the TSA workforce on the back burner.
    The President has prioritized the border wall above all 
other Homeland Security missions, threatening to undermine the 
security of the traveling public. Just recently, we learned 
that the administration is sending TSA employees, including 
TSOs, to the Southwest Border, just as the busy summer travel 
season is about to begin. TSA's workforce is already stretched 
too thin, and can't afford such diversions.
    TSA's morale is low, and its attrition is high. Last year, 
out of 410 Federal agency subcomponents surveyed, TSA came in 
410th, or last, when it came to employee pay satisfaction. We 
can't do business that way. TSOs are among the lowest-paid 
workers in Government, and we saw during the recent shutdown 
that many of them live paycheck to paycheck. Let me repeat: 
TSOs are among the lowest-paid workers in Government, and 
during the most recent shutdown, many of them lived paycheck to 
paycheck.
    TSOs also lack basic workforce rights and protections, such 
as full collective bargaining rights, and the ability to appeal 
disciplinary actions to an independent third party. This is no 
way to run a National security agency. TSA Administrator David 
Pekoske has attempted to address some of these challenges by 
creating a career progression plan for TSOs, but more must be 
done.
    Unfortunately, in response to my question at our 
subcommittee's recent hearing last month, Administrator Pekoske 
refused to commit to continue working with TSA unions once the 
current collective bargaining agreement expires in December. 
Collective bargaining at TSA is already limited to scope and 
inadequate to meet the needs of the workforce. Refusing to 
advance even the status quo would amount to a counter-
productive attack on labor.
    I hope Administrator Pekoske will decide to continue to 
allow a unionized workforce. The TSA administration must 
recognize the need to address TSA's workforce challenges as 
TSA's attrition rate threatens to outpace its hiring rate. In 
2016 and 2017, TSA hired more than 19,300 TSOs, yet lost more 
than 15,500 TSOs. If those numbers move slightly in the wrong 
direction, we could see a dwindling TSO workforce, even as 
passenger volume continues to increase.
    Already, lines in front of TSA checkpoints snake through 
airport terminals, hindering airport operations, and creating 
security vulnerabilities. Airport security must be a priority.
    I am looking forward to hearing from our witnesses today 
about the scope of problems facing TSA, and their 
recommendations you may have to address them. Let me say to all 
of our TSA workers, during the shutdown, you all showed up day 
after day without being paid. You kept our airlines, our 
planes, our passengers safe. Thank you very much.
    [The statement of Chairman Correa follows:]
                  Statement of Chairman J. Luis Correa
                              May 21, 2019
    Today's hearing will discuss the challenges facing the TSA 
workforce and how they impact TSA's National security mission. We are 
all well aware of the threats facing our Nation's transportation 
systems. Terrorists, lone wolves, and other threat actors continue to 
target crowded airports, mass transit hubs, and air carriers, with the 
ultimate goal of taking down a plane.
    TSA has a no-fail mission. A single bomb or weapon slipping through 
security could be used to devastating effect. Transportation Security 
Officers, or TSOs, work on the front line as our country's main 
defenders against these threats. Their jobs are extremely difficult, as 
they must look for a needle in the haystack of overstuffed bags, pat 
down passengers in uncomfortable areas, detect fraudulent IDs, and keep 
pace with evolving policies and technologies--all while serving as the 
face of Government toward impatient and sometimes unruly passengers. We 
must ensure that TSA hires, trains, and retains a professional 
workforce should be one of the Department of Homeland Security's top 
priorities.
    Unfortunately, this administration has placed supporting the TSA 
workforce on the back burner. President Trump has prioritized a border 
wall above all other homeland security missions, threatening to 
undermine the security of the traveling public. Most recently, we 
learned last week that the administration is sending TSA employees, 
including TSOs, to the Southwest Border, just as the busy summer travel 
season is about to begin. TSA's workforce is already stretched too thin 
and cannot afford such diversions.
    TSA's morale is low, and its attrition is high. Last year, out of 
410 Federal agency subcomponents surveyed, TSA came in 410th place when 
it came to employee pay satisfaction--that is, last place. TSOs are 
among the lowest-paid workers in Government, and we saw during the 
recent shutdown that many of them live paycheck to paycheck. TSOs also 
lack basic workforce rights and protections, such as full collective 
bargaining rights and the ability to appeal disciplinary actions to an 
independent third party. This is no way to run a National security 
agency.
    TSA Administrator David Pekoske has attempted to address some of 
these challenges by creating a career progression plan for TSOs, but 
more must be done. Unfortunately, in response to my questions at our 
subcommittee's budget hearing last month, Administrator Pekoske refused 
to commit to continue working with the TSA union once the current 
collective bargaining agreement expires this December. Collective 
bargaining at TSA is already limited in scope and inadequate to meet 
the needs of the workforce; refusing to advance even the status quo 
would amount to a counterproductive attack on labor. I hope 
Administrator Pekoske will decide to continue allowing a unionized 
workforce.
    The administration must recognize the need to address TSA's 
workforce challenges, as TSA's attrition rate threatens to outpace its 
hiring rate. In 2016 and 2017, TSA hired more than 19,300 TSOs, yet 
lost more than 15,500 TSOs. If those numbers move just slightly in the 
wrong direction, we could see a dwindling TSO workforce--even as 
passenger volume continues to increase dramatically. Already, lines in 
front of TSA checkpoints snake through airport terminals, hindering 
airport operations and creating security vulnerabilities.
    Airport security must be a priority. I look forward to hearing from 
our witnesses about the scope of the problems facing TSA and 
recommendations to address them.

    Mr. Correa. Now, I would like to recognize the Ranking 
Member of the subcommittee, the gentlelady from Arizona, Mrs. 
Lesko, for an opening statement.
    Mrs. Lesko. Thank you, Mr. Chairman. For those of you that 
don't know, today is the 100th anniversary of the date that the 
U.S. House of Representatives passed the 19th Amendment. Hence, 
we are all wearing the yellow roses to celebrate that.
    Well, again, thank you, Mr. Chairman. I am pleased that the 
subcommittee is holding this hearing today on important 
challenges facing the Transportation Security Administration 
workforce, who serve on the front lines protecting the 
traveling public from ever-present threats to transportation 
security. I thank TSA employees for their dedication to 
protecting our Nation and our people.
    As identified in a recent report released by the Department 
of Homeland Security's Office of Inspector General, TSA 
continues to struggle to provide consistent recruitment, 
retention, and training at Federalized airports across the 
United States, contributing to the agency's long-standing 
attrition and morale challenges.
    TSA continues to struggle managing its front-line workforce 
who are so critical in protecting the public. The TSA workforce 
has a demanding job, and is truly the most important part of 
the agency. As America's economy continues to grow, 
unemployment has reached a 50-year low. Americans have more job 
options. Thus, a competitive labor market will only add 
additional challenges to TSA's efforts to retain personnel.
    The agency must double-down on progress made toward 
improving career progression for front-line personnel and 
making TSA a better place to work. One possible solution, an 
alternative, is for more airports to consider participating in 
a screening partnership program, otherwise known as SPP. This 
program offers airports the opportunities to move from a 
Federalized to a privatized screener workforce that, while 
still overseen by TSA, is managed by private companies who may 
be better able to have flexibility for staffing needs.
    Notably, during the month-long Government shutdown earlier 
this year, screeners at SPP airports continued to be paid, 
while Federal TSA screeners were not. Obviously, the shutdown 
was terrible, and I wish the TSA screeners would have been 
paid. I think I even cosponsored a bill to do so.
    To be clear, Federal TSA screeners should not have been put 
in such a position as the Federal shutdown while Congress 
failed to fund the Government; however, airports who are 
concerned by workforce impacts stemming from Washington may 
wish to consider participation in SPP as a potential solution.
    Some say that SPP takes us back to pre-9/11-style security, 
simply because the screeners are not Federal employees. I 
believe this is false and a misleading narrative, and it fails 
to take into account that SPP airports use the same equipment 
and same screening procedures as Federalized airports, and are 
overseen locally by TSA officials.
    I am hopeful that Congress can work in a bipartisan manner 
to ensure the agency is nimble, but also effective and 
adequately staffed. TSA should take into account the results of 
a recently completed Blue Ribbon Commission panel on addressing 
workforce needs, which cautions against moving TSA personnel 
under Title V. Rather, this report recommends that TSA explore 
a wholesale rethinking of its pay scale structure and move even 
further away from a Title V model to exercise existing 
authorities and improved screener pay, performance, and morale.
    Recently, over 100 TSA personnel, mostly from the Federal 
Air Marshal Service, volunteered in response to a DHS 
solicitation to help booster the efforts of Customs and Border 
Protection along our Southern Border. While the title of this 
hearing references a perceived crisis within the TSA workforce, 
I am mindful of the very real crisis facing DHS personnel along 
the border, and I am grateful to the service of TSA personnel 
who have volunteered to help their DHS colleagues in their 
vital Homeland Security mission.
    This move underscores more than just the crisis at the 
border. It also underscores the dedication of our DHS men and 
women to their homeland security mission. That is why we here 
in Congress must act together to provide the necessary 
resources and oversight to ensure the TSA workforce is equipped 
for the challenges of today and the challenges of tomorrow.
    I am looking forward to hearing from all the witnesses 
today. I thank you, Mr. Chairman, and I yield back the balance 
of my time.
    [The statement of Ranking Member Lesko follows:]
                Statement of Ranking Member Debbie Lesko
    Thank you, Mr. Chairman. I am pleased that the subcommittee is 
holding this hearing today on important challenges facing the 
Transportation Security Administration workforce, who serve on the 
front lines protecting the traveling public from ever-present threats 
to transportation security. I thank TSA for their dedication protecting 
our Nation and people.
    As identified in a recent report released by the Department of 
Homeland Security's Office of Inspector General, TSA continues to 
struggle to provide consistent recruitment, retention, and training at 
Federalized airports across the United States, contributing to the 
agency's long-standing attrition and morale challenges. TSA continues 
to struggle managing its front-line workforce, who are so critical in 
protecting the public. The TSA workforce has a demanding job and is 
truly the most important part of the agency.
    As America's economy continues to grow, unemployment has reached a 
50-year low and Americans have more job options, thus a competitive 
labor market will only add additional challenges to TSA's efforts to 
retain personnel. The agency must double down on progress made toward 
improving career progression for front-line personnel and making TSA a 
better place to work.
    One possible solution and alternative is for more airports to 
consider participating in the Screening Partnership Program, otherwise 
known as SPP. This program offers airports the opportunity to move from 
a Federalized to a privatized screener workforce that, while still 
overseen by TSA, is managed by private companies who may be better able 
to respond to staffing needs. Notably, during the month-long Government 
shut-down earlier this year, screeners at SPP airports continued to be 
paid, while Federal TSA screeners were not.
    To be clear, Federal TSA screeners should not have been put in such 
a position while Congress failed to fund the Government; however, 
airports who are concerned by workforce impacts stemming from 
Washington may wish to consider participation in SPP as a potential 
solution. Some say that SPP takes us back to pre-9/11 style security 
simply because the screeners are not Federal employees. This false and 
misleading narrative fails to take into account that SPP airports use 
the same equipment and same screening procedures as Federalized 
airports and are overseen locally by TSA officials. I am hopeful that 
Congress can work in a bipartisan manner to ensure the agency is 
nimble, but also effective and adequately staffed.
    TSA should take into account the results of a recently completed 
Blue Ribbon Commission panel on addressing workforce needs, which 
cautions against moving TSA personnel under Title 5. Rather, this 
report recommends that TSA explore a wholesale rethinking of its pay-
scale structure and move even further away from a Title 5 model to 
exercise existing authorities and improve screener pay, performance, 
and morale.
    Recently, over 100 TSA personnel, mostly from the Federal Air 
Marshal Service, volunteered in response to a DHS solicitation to help 
bolster the efforts of Customs and Border Protection along our Southern 
Border. While the title of this hearing references a perceived crisis 
within the TSA workforce, I am mindful of the very real crisis facing 
DHS personnel along the border and am grateful to the service of TSA 
personnel who have volunteered to help their DHS colleagues in their 
vital homeland security mission. This underscores more than just the 
crisis at the border--it also underscores the dedication of our DHS men 
and women to their homeland security mission.
    That is why we here in Congress must act together to provide the 
necessary resources and oversight to ensure the TSA workforce is 
equipped for the challenges of today and the challenges of tomorrow. 
Thank you, Mr. Chairman, and I yield back the balance of my time.

    Mr. Thompson [presiding]. Thank you very much. I am sitting 
in the place of Mr. Correa, who has to go take a vote in 
Judiciary on a little small matter, but he will return. In the 
absence of the Chair, I will be here. I would also like to 
thank our witnesses.
    I have a number of issues associated with this hearing, but 
I would like to say to our TSOs, I want to thank them very much 
for working under some of the trying conditions, like not 
getting paid that the Ranking Member talked about. The fact 
that somehow, we still can't get them put on the GSA schedule 
like most other Federal employees, and collective bargaining, 
which is clearly something that is near and dear to employees 
who decide that they want representation.
    So I am looking forward to the comments from our witnesses, 
as well as I am concerned about the OPM ratings that somehow 
put TSA at the bottom every year in terms of morale and other 
things. Some of us believe that there are some things that we 
could do as Congress to make things better. So I look forward 
to hearing the testimony.
    [The statement of Chairman Thompson follows:]
                Statement of Chairman Bennie G. Thompson
                              May 21, 2019
    TSA is essential to the Nation's homeland security enterprise. It 
could not do its critical work without its strongest asset: Its 
workforce. Transportation Security Officers, or TSOs, screen millions 
of passengers every day at airport checkpoints, while Federal Air 
Marshals, TSA Inspectors, and other TSA employees work behind the 
scenes to secure our aviation system. Unfortunately, TSA's workforce is 
not receiving the resources and support it needs to execute its mission 
successfully.
    The Trump administration's budget requests for the past 3 years 
have been woefully inadequate in supporting the TSA workforce--to the 
point that the administration now is undermining TSA's ability to carry 
out its mission. Shockingly, this year's budget request proposed 
cutting the TSA workforce by 815 full-time employees from enacted 
levels, when staffing is already stretched thin. The administration has 
also failed to request the funding necessary to provide sorely needed 
salary increases for TSOs, some of whom have worked for years on end 
with few, if any, raises.
    Today, we will hear from one of our witnesses about a report that 
found, under current practices, it would take an entry-level TSO 30 
years to reach the top of the entry-level pay band. As a result of low 
salaries and insufficient raises, many TSOs live paycheck to paycheck. 
Earlier this year, we saw the debilitating impact the Government 
shutdown had on TSOs, as many officers experienced financial hardship 
due to missed paychecks that prevented them from providing for their 
families. The strain during the shutdown magnified pressures already 
facing TSOs, who are underpaid compared to most other Federal workers 
and vulnerable to low morale and high attrition. Unlike employees at 
most Federal agencies, TSOs do not receive regularly scheduled salary 
increases and lack basic workplace protections and rights. In 2018, 
according to employee surveys, TSA ranked dead last out of 410 Federal 
agency subcomponents on employee pay satisfaction. TSA Administrator 
Pekoske has acknowledged that better pay and increased staffing would 
result in lower attrition and better mission execution.
    Even though the administrator is authorized to grant salary 
increases if funded, the agency has not fully addressed long-term 
concerns about the competitiveness of a TSO salary. Low pay, in 
combination with TSA's chronically low morale and limited benefits and 
workforce protections, have resulted in high attrition rates for TSOs. 
A recent DHS Office of Inspector General report confirmed that TSA 
could save millions of taxpayer dollars if TSA improved its hiring and 
retention practices for TSOs. TSA spends millions annually to hire 
thousands of TSOs, only to replace them with new TSOs soon after. Not 
only are its workforce challenges resulting in the loss of 
productivity, diminished expertise, and decreased employee morale--but 
TSA is wasting millions of taxpayer dollars and possibly putting our 
security at risk. This is unacceptable. I have introduced a bill, the 
Rights for Transportation Security Officers Act of 2019, to provide TSA 
front-line workers with the same rights and protections afforded to 
other Federal workers under Title 5 of the U.S. Code. This bill would 
set a path for increased pay and benefits for TSOs, providing access to 
the same basic personnel system used by most of the Federal Government. 
While we work toward building consensus in Congress, the administration 
must stop moving in the wrong direction.
    Concerningly, Administrator Pekoske has not confirmed that he would 
allow for collective bargaining at TSA beyond December 2019. Collective 
bargaining is one of the few workforce protection and grievance 
mechanisms TSOs have under the current TSA personnel structure. The 
potential loss of such a right would only further drive down morale and 
hurt TSO staffing levels, even as passenger volume continues to 
increase Nation-wide. When TSA is short-staffed and not functioning 
effectively, airports can become crowded, crippled, and vulnerable to 
attacks. These are risks that we simply cannot afford to take. That is 
why we have to explore solutions to address TSA's attrition problems 
and improve workforce protections for TSOs head-on. Addressing TSA's 
workforce challenges in a strategic manner will not only improve front-
line workforce morale, but also advance aviation security in the face 
of evolving threats.

    Mr. Thompson. I would like to welcome our panel of 
witnesses. Our first witness, Mr. John V. Kelly, joined the DHS 
Office of Inspector General in 2008, and was appointed Deputy 
Inspector General in June 2016.
    Our next witness is Jay David Cox, he is national president 
of the American Federation of Government Employees, which is 
the largest union representing Federal employees in the 
District of Columbia. Mr. Cox was first elected AFGE president 
in August 2012, and was reelected to his third 3-year term in 
August 2018.
    Lance Lyttle, our third witness, is the managing director 
of the Seattle-Tacoma International Airport at the Port of 
Seattle. Prior to joining the Port, Mr. Lyttle was a chief 
operating officer of Houston's 3 airports, and an assistant 
general manager at Hartsfield-Jackson in Atlanta.
    Our fourth witness, Mr. Jeffrey Neal, has served as senior 
vice president at International--ICF International since 2011. 
Mr. Neal previously served as chief Human Capital officer at 
DHS and chief Human Capital officer at the Defense Logistics 
Agency. Without objection, the witnesses' full statements will 
be inserted in the record. I now ask each witness to summarize 
his or her statement for 5 minutes, beginning with Mr. Kelly.

     STATEMENT OF JOHN V. KELLY, ACTING INSPECTOR GENERAL, 
                DEPARTMENT OF HOMELAND SECURITY

    Mr. Kelly. Chairman Thompson, Chairman Correa, Ranking 
Member Lesko, and Members of the subcommittee, thank you for 
inviting me to discuss TSA's challenges with its transportation 
security officer workforce. At the end of fiscal year 2017, TSA 
had about 61,000 employees, more than half of which are entry-
level security officers.
    TSA relies on security officers to safeguard the traveling 
public by identifying prohibited items, and preventing those 
items from getting on aircraft. We previously reported, in our 
covert testing and other reports, on the importance of security 
officers. We believe security officers' retention and training 
challenges contribute to airport security weaknesses. Human 
performance and sound judgment are critical factors in 
protecting against terrorists.
    Hiring, training, and retaining a qualified workforce is 
critical to secure our airports. Our auto report identified 3 
basic problems: First, TSA does not always ensure it hires the 
most qualified security officers. While TSA tests applicants, 
TSA could enhance its testing by including personality and 
practice tests to determine whether or not an applicant is 
suitable for their job.
    TSA could also improve security officers, the interview 
process, by allowing interviewers to exclude an applicant if 
they believe the applicant is not a good fit, and also 
including questions that assess an applicant's ability to 
perform the security officer's duties.
    Second, training deficiencies may lead to security risks. 
If new or inexperienced security officers are not adequately 
trained, air travelers' safety can be put at risk. Before we 
initiated our most recent audit, TSA did not have a 
standardized approach to train new security officers. This can 
cause a significant problem, because TSA does not immediately 
send security officers to basic training.
    TSA exacerbated this problem by not giving all airport 
training managers visibility into the basic training 
curriculum. The third problem is, TSA does not use all 
resources to retain security officers. TSA reports its 
attrition rate is roughly the Government average of about 17 
percent. However, TSA's voluntary attrition rate of 14 percent 
exceeds the Government's voluntary attrition rate of 11 
percent. Further, a large portion of security officers are 
part-time employees who have a 26 percent attrition rate. This 
inability to retain security officers has a financial and 
security impact.
    In fiscal year 2017, TSA spent $75 million to hire and 
train over 9,000 new security officers, roughly 20 percent of 
which left within 6 months of being hired. TSA is plagued with 
high attrition across all airport sizes. However, smaller 
airports have the highest attrition rates. This is acutely 
dangerous because small airports may have only a handful of 
security officers. Consequently, their loss is more difficult 
to manage.
    Security officers at small airports leave because of 
limited career growth opportunities, and scheduling challenges. 
TSA has taken some actions to retain security officers, but it 
has not used all available resources. For example, TSA airport 
officials do not consistently conduct exit interviews, and when 
they do conduct exit interviews, it does not always share the 
results with airport officials.
    In addition, low pay has an impact on TSA's ability to 
retain security officers. Some airports have difficulty 
competing with local employers. Federal data shows that at 
hard-to-hire airports, TSA pays security officers 30 percent 
below the local per capita income. Improving retention efforts 
could improve security and save taxpayer dollars.
    In summary, given the security officer's integral role in 
ensuring the Nation's aviation system security, TSA must hire 
highly-qualified applicants who are well-trained and motivated 
to remain for a long-term career. By improving hiring and 
retention policies, TSA can maintain a fully capable and 
experienced security officer workforce and realize cost 
savings.
    I am happy to report that TSA concurred with all 9 
recommendations, and has taken steps to implement some of those 
recommendations. Actually, we have closed 3 of those. Mr. 
Chairman, this concludes my testimony. I am happy to answer 
questions you or Members of the subcommittee may have.
    [The prepared statement of Mr. Kelly follows:]
                  Prepared Statement of John V. Kelly
                              May 21, 2019
                         why we did this audit
    TSOs are integral to improving aviation security at our Nation's 
airports by identifying prohibited objects in bags, in cargo, and on 
passengers. Therefore, TSA must retain, hire, and train its TSOs with 
the requisite skills and abilities to help protect the Nation from 
aviation security risks. We conducted this audit to determine the 
extent to which TSA retains, hires, and trains TSOs to accomplish its 
screening mission.
What We Recommend
    We made 9 recommendations that, when implemented, should help TSA 
improve TSO retention, hiring, and trainng.
                             what we found
    The Transportation Security Administration (TSA) needs to continue 
to improve its retention, hiring, and training of Transportation 
Security Officers (TSOs). Specifically, TSA needs to better address its 
retention challenges because it currently does not share and leverage 
results of TSO exit surveys and does not always convey job expectations 
to new hires. Prior to August 2018, TSA did not always focus on TSO 
career growth. Thus, the agency may be missing opportunities to prevent 
early attrition. By improving its retention efforts, TSA could save 
funds otherwise spent to hire and train new TSOs.
    Furthermore, TSA does not fully evaluate applicants for capability 
as well as compatibility when hiring new TSOs. Thus, the agency may be 
making uninformed hiring decisions due to inadequate applicant 
information and a lack of formally-documented guidance on ranking 
potential new hires. Without complete information, TSA may not be 
selecting the most highly-qualified individuals as TSOs.
    Prior to July 2018, TSA had not standardized the approach for 
training new TSOs before they attend basic training and did not 
consistently send TSOs to basic training immediately following on-
boarding. TSA also does not give all airports complete visibility into 
its basic training curriculum as a basis for training new hires 
locally. Without an experienced workforce or a consistent, robust 
training program, TSA is missing opportunities to strengthen its 
workforce. Given the importance of TSOs fulfilling the aviation 
security mission, TSA must address its retention, hiring, and training 
challenges, which could save millions in taxpayers' dollars.
                              tsa response
    TSA concurred with all 9 recommendations and initiated corrective 
actions to address the findings.
    Chairman Correa, Ranking Member Lesko, and Members of the 
subcommittee, thank you for inviting me today to discuss the recent 
work of the Department of Homeland Security Office of Inspector General 
(OIG) related to the Transportation Security Administration's (TSA) 
Transportation Security Officer (TSO) workforce. In my testimony today, 
I am pleased to share the results of our office's recent work, in which 
we identified challenges facing TSA in retaining, hiring, and training 
its TSOs.\1\
---------------------------------------------------------------------------
    \1\ TSA Needs to Improve Efforts to Retain, Hire, and Train its 
Transportation Security Officers, OIG-19-35 (March 2019).
---------------------------------------------------------------------------
    TSA's mission is to protect our Nation's transportation systems to 
ensure freedom of movement for people and commerce. A professional, 
motivated, and dedicated workforce is vital to mission success. At the 
end of fiscal year 2017, TSA had about 61,400 employees, of which more 
than 34,200 (56 percent) were entry-level TSOs. TSA relies on TSOs to 
ensure the safety of air travelers by identifying prohibited objects in 
bags, in cargo, and on passengers to prevent those objects from getting 
onto aircraft--a difficult and complex job. Therefore, hindrances to 
TSA's ability to hire qualified applicants and retain experienced staff 
who are adequately trained has both financial and security-related 
implications. History shows terrorists are capable of attacking in many 
different ways. As threats change, TSA pursues advanced technology for 
detection. This requires that TSOs learn and operate new equipment with 
revised procedures to safeguard the traveling public. Failure to 
address and overcome these challenges could affect the overall safety 
of air travelers and the entire aviation transportation system.
    In our report, we noted that TSA \2\ has difficulty retaining TSOs 
because it does not share and leverage results of TSO exit surveys and 
does not always convey job expectations to new hires. As a result, TSA 
may be missing opportunities to prevent early attrition. By improving 
its retention efforts, TSA could save funds otherwise spent to hire and 
train new TSOs. We also reported that, when hiring new TSOs, TSA does 
not fully evaluate applicants' capability and compatibility. The 
resultant inadequate applicant information combined with a lack of 
formally documented guidance for ranking potential new hires may lead 
to uninformed hiring decisions. Without complete information, TSA may 
also not be selecting the most highly-qualified individuals. Finally, 
although TSA now has a standardized approach to training new TSOs, we 
reported that, prior to July 2018, TSA did not have such an approach 
and did not consistently send TSOs to basic training immediately after 
on-boarding. Our audit also showed that TSA was not giving all airports 
visibility into its basic training curriculum for them to use as a 
basis to train newly-hired TSOs locally. The lack of consistent, robust 
training program means TSA is missing opportunities to strengthen its 
workforce and create a cadre of experienced TSOs. I am pleased to 
report that TSA concurred with all 9 of our recommendations and began 
taking actions to implement them, which are detailed later in this 
testimony.
---------------------------------------------------------------------------
    \2\ Our scope focused on Federalized airports, not the privatized 
airports, also referred to as the Screening Partnership Program (SPP).
---------------------------------------------------------------------------
    In many of our previous reports stemming from covert testing and 
other audits related to TSO performance and training, we identified 
issues at TSA that diminish its ability to retain personnel and lead to 
high employee turnover. These issues include low workforce morale, 
staffing and scheduling challenges, inadequate management of employees, 
high attrition rates, and relatively low pay for TSOs. In response to 
the recommendations in our previous reports,\3\ TSA has taken steps to 
address these issues, but as we recently reported, some challenges 
persist.
---------------------------------------------------------------------------
    \3\ The reports include: Covert Testing of TSA's Screening 
Checkpoint Effectiveness OIG-17-112, September 2017, and TSA's 
Management of Its Screening Workforce Training Program Can Be Improved 
OIG-11-05, October 2010.
---------------------------------------------------------------------------
            training deficiencies may lead to security risks
    As threats change, TSA pursues advanced detection technology, which 
requires TSOs to learn revised procedures and operate new equipment to 
safeguard the traveling public. If new, inexperienced TSOs are not 
adequately and consistently trained, air travelers' safety can be put 
at risk. In our recent report, we found that TSA lacked a standard 
approach to training prior to TSO attendance at Basic Training Program 
(BTP), which it has sought to correct. We also determined that airport 
training managers did not have visibility into the TSO basic training 
curriculum.
    Before July 2018, TSA did not have a standardized approach for 
training new TSOs before they attended the BTP and did not consistently 
send TSOs to basic training immediately following on-boarding. TSA did 
take steps to rectify these issues by standardizing its approach.
    Although TSA has standardized its training approach, personnel in 
TSA's Training and Development office did not give all airport training 
managers complete visibility into the TSO BTP curriculum so they could 
use it as a basis to train newly-hired TSOs. At the time of our audit, 
at least 5 of the 12 airports we visited were not able to access the 
TSO BTP curriculum. Without knowing the content of the BTP curriculum, 
airport training managers would not be able to improve TSO skills and 
performance with appropriate local training.
        tsa does not use all available resources to retain tso s
    TSA's inability to retain TSOs and reduce turnover has a financial 
impact. During fiscal years 2016-2017, TSA hired more than 19,300 TSOs 
to address vacancies and anticipated attrition, but during the same 
period lost more than 15,500. Every year, TSA spends millions of 
dollars to hire and train new TSOs to replace those who leave. In 
fiscal year 2017, TSA obligated about $3.5 billion for TSO screening 
operations, which was about 41 percent of TSA's funding.\4\ The $3.5 
billion included costs for screening personnel, compensation, benefits, 
and training. During the same year, TSA hired more than 9,600 TSOs, 
costing the component approximately $75 million in hiring and training 
costs.
---------------------------------------------------------------------------
    \4\ Fiscal year 2017 TSA obligational authority was $8.4 billion, 
which does not include $2.8 billion for aviation security and 
credentialing fees collected. According to a TSA official, obligational 
authority is the authority provided by law to incur financial 
obligations that will result in outlays.
---------------------------------------------------------------------------
    TSA continues to struggle with attrition across all sizes of 
airports. For example, the 3 largest category airports, representing 92 
percent of the TSO workforce, have an attrition rate of approximately 
17 percent. The smallest categories of airports, representing 8 percent 
of the TSO workforce, have an attrition rate of approximately 19 
percent. A large portion of the newly-hired TSO officer workforce were 
part-time employees who had a 26 percent attrition rate. Smaller 
airports may only have 4 TSO positions, whereas larger airports may 
have more than 1,000 TSO positions. According to TSA airport officials, 
TSOs at smaller airports may leave due to limited career growth 
opportunities and scheduling challenges. TSA has identified some 
challenges to retaining TSOs and has taken actions to address them, for 
example, by offering retention incentives in some cities. However, the 
component has not yet used all available resources to retain TSOs and 
reduce turnover.
    First, TSA does not fully utilize TSO exit surveys and the data 
collected in TSO exit surveys to determine how to enhance the TSO work 
experience. In addition, TSA airport officials do not consistently 
conduct exit interviews when TSOs leave. As TSOs depart, officials may 
collect limited information, but it is not always used to address 
weaknesses that may be contributing to TSO turnover.
    At the time of our audit, TSA's Human Capital office analyzed the 
results of exit surveys for common themes and presented the information 
to TSA senior officials, but it did not share survey results with 
airport management for more comprehensive analysis. Additionally, TSA 
did not fully analyze survey responses, especially from high-turnover 
employees, such as part-time personnel and those with less than 6 
months' experience.
    Our review of TSA exit survey results from more than 10,000 
respondents from fiscal years 2012-2017 showed common themes, most of 
which TSA airport official corroborated during our interviews. These 
common themes included dissatisfaction with career advancement 
opportunities and issues with management's competence and 
communication. The most common responses identified in these exit 
surveys related to dissatisfaction with the TSO role, including career 
advancement, management, scheduling, and pay.
    Second, according to TSA airport officials we interviewed, some 
TSOs leave shortly after starting because they do not fully understand 
scheduling demands or the daily tasks of the job, such as the details 
of pat-down procedures. We found that TSA had available, but did not 
require airports to use, means of communicating job expectations to 
applicants. Such means include a Realistic Job Preview video and an 
optional conversation prior to scheduling the Airport Assessment or 
prior to check-in on the day of the Airport Assessment.
    Third, TSA did not consistently focus on career development 
opportunities for TSOs to promote interest and long-term loyalty. At 
some airports we visited, we obtained an understanding of best 
practices related to career development such as promotions and the 
opportunity to take roles outside of screening operations. At 6 of 12 
airports visited, TSA airport officials agreed that lack of career 
advancement affected TSO attrition. TSA has taken steps to address this 
issue. In August 2018, TSA implemented the first phase of TSO Career 
Progression, which provides newly-hired entry-level officers a career 
path with pay increases tied to enhanced skills and training. Under TSO 
Career Progression, newly-hired TSOs must successfully complete 
standardized training locally and then attend training at the TSA 
Academy within a certain period of on-boarding.
    Fourth, staffing shortages affect retention. TSA officials reported 
they were short-staffed because not enough applicants were in the 
hiring pipeline. TSA officials from one airport we visited expressed 
concerns about staffing according to the airport's Resource Allocation 
Plan.\5\ In the second quarter of fiscal year 2018, the airport was 
staffed at 87 percent. An official at the same airport said that even 
though TSA offers overtime shifts to fill scheduling gaps resulting 
from staff shortages, the airport has difficulty filling those overtime 
shifts. In our opinion, excessive use of overtime, which could be 
mitigated by competitive salaries and adequate staffing levels, could 
also result in lower job satisfaction and morale, and therefore higher 
turnover.
---------------------------------------------------------------------------
    \5\ Security Operations provides a Resource Allocation Plan to each 
airport based upon data, such as passenger volume and targeted wait 
times. This plan estimates the number of full-time equivalents 
necessary to meet these demands.
---------------------------------------------------------------------------
    Finally, low pay has an impact on TSA's ability to retain TSOs. 
During our audit, airport hiring personnel said they had difficulty 
competing with local economic conditions. Exit surveys cited pay as one 
of the most common reasons employees leave TSA. According to a 2014 TSA 
memo, front-line TSOs were the lowest-paid operational personnel in 
TSA's workforce. TSO pay is limited to the TSA pay bands allotted for 
the position. Officials from 2 hard-to-hire airports said TSOs often 
leave to find job opportunities that offer the same or higher pay. When 
comparing the most recent Census Bureau data for cities in which these 
2 hard-to-hire airports are located, TSA pays TSOs as much as 31 
percent below the per capita income amount.
    By improving its retention efforts, TSA could save millions of 
taxpayer dollars spent hiring and training new TSOs. Attrition costs 
include the costs of replacing those who leave by hiring and training 
new staff, as well as losses associated with productivity, 
institutional knowledge, decreased employee morale, and potential 
performance gaps as new staff take time to learn to fully perform in 
their job.
tsa has not fully pursued all options to ensure it hires qualified tso 
                                   s
    TSA has not pursued all options for fully evaluating applicants to 
ensure it hires qualified staff. For example, TSA could enhance its 
current competency tests. During the Computer-Based Test (CBT)\6\ and 
interview, TSA assesses competencies, such as oral communication, 
attention to detail, conflict management, critical thinking, 
flexibility, integrity, honesty, teamwork, and situational awareness. 
TSA could potentially enhance the CBT by including personality tests 
and practice tests given at colleges to determine fitness for TSO 
positions. Additionally, TSA could enhance its structured interview, 
which consists of 7 competencies validated as critical for the 
position, including flexibility, teamwork, and oral communication. 
According to TSA personnel at one airport, the interview portion limits 
their ability to disqualify applicants because interviewer has to 
follow scripts during the interview and have little latitude on what 
they can tell the candidate. The interviewer does not have the ability 
to say the candidate is not a good fit, for example, if he arrives late 
and is dressed inappropriately. TSA personnel at another airport said 
the interview questions do not assess the ability to perform actual TSO 
duties.
---------------------------------------------------------------------------
    \6\ The CBT comprises a Screener English Test and a Screener Object 
Recognition Test.
---------------------------------------------------------------------------
    The TSA Human Capital office has started an initiative to develop 
and implement a valid assessment to strengthen the TSO applicant pool 
by identifying applicants least and most likely to be a good fit for 
the position. In April 2018, TSA officials completed research on the 
potential effectiveness of assessing job compatibility during the 
hiring process. TSA officials said the job compatibility assessment is 
a pre-employment suitability screening that focuses on personality-
related, motivational, and attitudinal competencies that are critical 
for job performance. The Human Capital office plans to complete this 
initiative and incorporate the assessment into the hiring process in 
the fall of 2019. Additional enhancements to improve the evaluation 
process include personality tests, practice tests, and asking 
structured interviews to better evaluate an applicant's ability to 
perform TSO duties.
    TSA also lacks supporting documentation for applicants. Airports 
could not provide documentation showing applicants passed all steps in 
the hiring process. Without these documents, TSA could not verify these 
applicants met the qualifications to be eligible for job offers. 
Additionally, TSA lacked formal criteria and clear guidance describing 
the Certification List \7\ ranking process used by the TSO Cert 
Tool.\8\ Without this evidence, we could not verify whether TSA 
programmed its TSO Cert Tool correctly. As a result, TSA airport 
personnel may not be contacting and extending job offers to the most 
qualified applicants.
---------------------------------------------------------------------------
    \7\ The Certification List is a list of eligible applicants used to 
select individuals for employment. TSA selecting officials at the 
airports make job offers to applicants in the order in which they 
appear on the Certification Lists ranking from best qualified, highly 
qualified, and qualified.
    \8\ The TSO Cert Tool uses a numeric score for each applicant 
derived from the Screener Object Recognition Test portion of the CBT 
and airport interview to rank applicants into qualified categories on a 
Certification List.
---------------------------------------------------------------------------
                               conclusion
    We have previously reported many findings and recommendations in 
prior Department of Homeland Security OIG covert testing and other 
audit reports specific to TSO performance and training. TSA continues 
to work on improving its workforce's capability to address security 
risks and vulnerabilities. We believe TSO retention and training 
challenges are contributing factors to airport security weaknesses. 
Human performance and sound judgment are critical factors in protecting 
the Nation against terrorist attacks, thus highlighting the importance 
of retaining experienced TSOs, hiring qualified TSOs, and training the 
workforce appropriately to secure our airports.
    Given TSO's integral role in ensuring the Nation's aviation system 
security, including the safety of millions of air travelers, TSA must 
hire highly-qualified applicants who are comprehensively trained and 
motivated to remain in their positions long-term. In our report, we 
identified challenges to achieving these goals. By addressing and 
overcoming these challenges, TSA will be able to maintain a fully 
capable and experienced TSO workforce and realize cost savings while 
effectively accomplishing its vital mission.
    As a result of our audit we made 9 recommendations to TSA aimed at 
improving retention, hiring, and training of TSOs. I am happy to report 
that TSA concurred with all 9 of our recommendations and has taken 
steps to implement them. Specifically, we closed 3 recommendations 
because TSA implemented the first phase of TSO Career Progression, sent 
a message to airports reminding them to follow TSA records retention 
policies, and is enforcing the pre-Basic Training Program training 
requirements. Based on information we received recently from TSA, we 
are working to close a fourth recommendation to give all airports 
access to the entire Basic Training Program curriculum. Four additional 
recommendations are resolved, but open pending receipt of further 
information from TSA. These are recommendations to improve the TSO 
hiring process, revise the exit survey process, examine pay increases 
based on TSO skill level, and document system functional requirements, 
such as the rating process criteria. Finally, our recommendation to TSA 
to review and develop recruitment and retention strategies to continue 
to review for reducing attrition at smaller airports; and among part-
time TSOs is unresolved because we do not agree with TSA's proposed 
corrective action plan. The actions TSA described during the 
recruitment process in their response to the recommendation do not 
specifically address the intent of the recommendation.
    Below is a summary of our recommendations, as well as TSA's 
corrective actions.
         summary of recommendations and tsa corrective actions
    1. We recommended that TSA improve the hiring process to ensure 
        applicants are informed of TSO duties and that TSA continue to 
        hire qualified applicants. In response, TSA said it would 
        mandate that personnel scheduling the Airport Assessment review 
        an airport's hours of operations, typical shifts and days off, 
        and typical duties of the position. Applicants will be required 
        to watch the TSO Realistic Job Preview. TSA plans to include a 
        compatibility assessment tool in the TSO hiring process by 
        September 30, 2019. (Recommendation is resolved and open.)
    2. We recommended that TSA revise the exit survey process to ensure 
        airports offer local exit interviews, record results in a 
        centralized system, provide access to the results, and address 
        areas identified in the results that would help retain a 
        skilled and knowledgeable TSO workforce. In Fall 2018, TSA 
        released a new Workforce Surveys iShare site, which includes a 
        page dedicated to the National Exit Survey. All TSA employees 
        have access to this page and are able to view survey 
        information and TSA-wide results and can run custom reports. 
        Employees can also use the iShare site to access action 
        planning tools and best practices. As needed, TSA will engage 
        with airports to facilitate local action planning focus groups. 
        Additionally, TSA will randomly evaluate these efforts. The 
        estimated completion date is September 30, 2019. To ensure 
        airports offer local exit interviews, the Human Capital office 
        and Security Operations will broadcast a message to airport 
        leadership reminding them of this requirement. The estimated 
        completion date is April 30, 2019. (Recommendation is resolved 
        and open.)
    3. We recommended that TSA continue to review and develop 
        recruitment and retention strategies for reducing attrition at 
        smaller airports and among part-time TSOs. TSA planned to 
        implement its TSO Career Progression, announced in August 2018. 
        TSA also said it uses retention incentives to augment TSO pay 
        at duty stations with retention and recruitment challenges and, 
        during the recruitment process, markets the benefits of Federal 
        employment and promotes TSO positions as an entry point to a 
        Federal career. TSA has also implemented additional recruitment 
        strategies and approaches, such as sponsored social media and 
        digital advertising. OIG responded that TSO Career Progression 
        and retention incentives may help retain TSOs, but recruitment 
        process actions described do not specifically address the 
        intent of the recommendation. This recommendation remains 
        unresolved and open because we did not agree with TSA's 
        proposed corrective action plan.
    TSA responded with a variety of overall recruitment and retention 
        strategies such as marketing on social media, implementation of 
        TSO Career Progression, use of retention incentives to augment 
        TSO pay at duty stations with retention and recruitment 
        challenges, and marketing the benefits of Federal employment to 
        prospective applicants. We recognize that TSO Career 
        Progression, implemented in August 2018, and retention 
        incentives may assist with retention of officers, including 
        those who are part-time or located at smaller airports. 
        However, actions described during the recruitment process do 
        not specifically address the intent of the recommendation.
    4. We recommended that TSA meet established time lines to implement 
        the first phase of TSO Career Progression for newly-appointed 
        entry-level TSOs. TSA implemented the first phase of TSO Career 
        Progression on August 5, 2018 for TSOs hired on or after that 
        date. (Recommendation is closed.)
    5. We recommended that TSA examine pay increases based TSO skill 
        level to help attract and retain a strong workforce. TSA 
        explained that TSO Career Progression, implemented in August 
        2018, is a strategic and comprehensive approach establishing a 
        clearly-defined and transparent career path for employees, with 
        pay increases tied to enhanced skills and training for the TSA 
        front-line workforce. TSA also completed an officer 
        compensation analysis, the results of which TSA will use to 
        consider changes to the existing TSO pay structure. The 
        estimated completion date is June 30, 2019. (Recommendation is 
        resolved and open.)
    6. We recommended that TSA remind airports to follow TSA records 
        retention policies for Airport Assessment documentation. On 
        October 2, 2018, TSA sent a message to airport hiring points of 
        contact. (Recommendation is closed.)
    7. We recommended that TSA formally document system functional 
        requirements, such as the rating process criteria, to ensure 
        proper system logic in ranking applicants on Certification 
        Lists. TSA will create a comprehensive Systems Functional 
        Requirements Document for any new systems and update it to 
        include rating process criteria in the TSO Cert Tool. The 
        estimated completion date is September 30, 2019. 
        (Recommendation is resolved and open.)
    8. We recommended that TSA enforce the pre-Basic Training Program 
        training requirements. As of August 2018, all TSOs hired 
        receive the same standardized local training prior to attending 
        a second phase of training at FLETC. Prior to attending FLETC, 
        TSOs complete an Academy-ready checklist, which the airport 
        maintains. This checklist ensures training completion. 
        (Recommendation is closed.)
    9. We recommended that TSA give all airports access to the entire 
        Basic Training Program curriculum. (TSA recently provided an 
        update. We are working to close this recommendation.)
    We will continue to approach our work with dedication and urgency 
and will keep Congress fully informed of our findings and 
recommendations, consistent with our obligations under the Inspector 
General Act of 1978.
    Mr. Chairman, this concludes my testimony. I am happy to answer any 
questions you or other Members of the subcommittee may have.
    Thank you.

    Mr. Thompson. Thank you for your testimony. I now recognize 
Mr. Cox to summarize his statement for 5 minutes.

    STATEMENT OF J. DAVID COX, NATIONAL PRESIDENT, AMERICAN 
          FEDERATION OF GOVERNMENT EMPLOYEES, AFL-CIO

    Mr. Cox. Thank you, Mr. Chairman, and Ranking Member, and 
the Members of the committee. A special thanks to you, Chairman 
Thompson, for introducing H.R. 1140, the bill to provide Title 
V protections to the TSO workforce. I ask each Member here 
today to co-sponsor this important legislation.
    The best way to describe the status of the transportation 
security officer workforce separate and unequal, unlike their 
colleagues and the rest of DHS, and unlike their colleagues and 
the rest of TSA itself, TSOs are excluded from the due process 
rights, the collective bargaining rights, the pay system, and 
other personnel rules under Title V.
    From its inceptions, TSA implemented two different 
personnel systems: One for TSOs, and one for the rest of the 
TSA workforce based on the FAA personnel system that applies 
most of Title V. As time passes, memory fades. Too many people 
forget that the 
9/11 terrorists exploited our weak first line of defense, 
airport security screening.
    TSA management comes very close to reproducing the pre-9/11 
conditions for airport security screeners. That is why the need 
for change is so urgent. There are two categories of change 
that need to be addressed: Pay and labor rights. Average 
starting salaries are too low, just $35,000 per year, less than 
$17 an hour. During the first 2 years, a long period of so-
called probation, they are stuck. The rewards for top 
performance are pitifully small.
    Last year, the 2 highest performance ratings, 4 and 5, 
awarded according to ever-changing criteria, earned you only a 
1 percent salary bump, or else a bonus that didn't go into your 
base. If the performance rating was a 3, described as achieving 
expectations, you get nothing. Do I have to tell you what 
impact this has on employee morale? Yes. These are the loyal 
TSOs that came to work through the 35-day shutdown, and this is 
the way TSA pay system treats them.
    TSA makes and breaks its own rules of employment for TSOs. 
It reinvents its pay standards every year. Airport checkpoints 
are effectively the fiefdoms of individual TSA managers, so 
much so that there is little consistency between checkpoints, 
let alone airports. Last year, TSA modified its table of 
penalties in a way that fundamentally misunderstands the very 
concept of progressive discipline.
    Progressive discipline is supposed to increase penalties 
for a particular type of misconduct. But in TSA, one tardy is a 
Strike 1. An unrelated uniform violation is Strike 2, and gets 
a TSO more serious disciplinary action that can lead to 
termination.
    Each disciplinary action stays in a personnel file for at 
least 2 years. The penalty for this is no transfer to another 
airport, and disqualification from career progression, and 
disqualifies a TSO from eligibility for that 1 percent 
performance raise, or the bonus pay to trainers. When little 
things have such harsh consequences, and when perfections have 
such small rewards, it is clear that the system is in need of a 
change.
    A single disciplinary action stalls a TSO's career for at 
least 2 long years. Of course, TSOs have almost no stability to 
clear the records because they lack a real grievance and 
arbitration process in their collective bargaining agreement. 
They have no recourse to the MSPB. The administrator has not 
yet committed to another round of collective bargaining when 
the current contract expires. Please be aware that the only 
progress that has been made in the area of labor relations at 
TSA has come at the bargaining table. TSA should not have the 
discretion under the law to refuse to bargain. That is another 
reason TSOs need coverage under Title V.
    So for all these reasons, we ask for legislation that 
grants TSOs full coverage under Title V, full first class 
status under the law, full rights, and a fair pay system that 
other employees of TSA, DHS, and the rest of the Federal 
Government have. This concludes my statement, and I will be 
glad to take questions at the end, sir.
    [The prepared statement of Mr. Cox follows:]
                Prepared Statement of J. David Cox, Sr.
                              May 21, 2019
    Chairman Correa, Ranking Member Lesko, Committee Chairman Thompson, 
and Members of the Homeland Security Committee, I am J. David Cox, and 
I am the national president of the American Federation of Government 
Employees, AFL-CIO (AFGE). On behalf of over 700,000 Federal workers 
represented by our union, including over 44,000 Transportation Security 
Officers (TSOs), I appreciate the opportunity to offer testimony at 
today's hearing before the Subcommittee on Transportation and Maritime 
Security of the Committee on Homeland Security, ``The TSA Workforce 
Crisis: A Homeland Security Risk.'' The title of this hearing is 
accurate: The performance of the TSO workforce remains at a high level 
and their diligence continues to keep the flying public safe--even as 
they worked without pay for 35 days as hostages during a Presidential 
game of ``chicken'' with Congress. In addition, TSOs encounter an 
almost hostile attitude from many in TSA management. Our union knows 
that rights under title 5 of the U.S. Code which would ensure TSOs the 
same fair pay, union rights, and respectful treatment as other Federal 
workers are directly tied to the ability of the workforce provide the 
highest level of aviation security.
    I would like to take this opportunity to thank the many Members of 
Congress on both sides of the aisle who stood with TSOs and the 
colleagues at other Department of Homeland Security (DHS) components, 
and the Departments of the Interior, Labor, Agriculture, and Justice 
during the shutdown. Members of Congress publicized the hardship and 
undue burden placed on Government workers during the shutdown, 
including essential employees of DHS components who worked without pay. 
The food pantries arranged by Representatives and Senators provided 
necessities to TSOs and their families. AFGE is also deeply 
appreciative of legislation filed to ensure furloughed and essential 
employees received full backpay, were eligible for unemployment 
compensation, and would have clearances and credit reports protected. 
Out of a situation created by the Government at its worst, Federal 
workers also experienced Government at its best.
    TSOs' lack of statutory rights is rooted in a combination of two 
things: First, a desire by the Government to provide aviation security 
on the cheap; and second, a pernicious belief that worker rights are 
somehow contrary to homeland security. TSA apparently bases its 
personnel policies on both notions even though each is demonstrably 
false, and each has made it more difficult for the agency to provide 
security to the flying public. Above all else, TSA desperately clings 
to its authority under  111(d) of the Aviation and Transportation 
Security Act (ATSA) (Pub. L. 107-71).
    The footnote reads as follows:

``Notwithstanding any other provision of law, the Under Secretary of 
Transportation for Security may employ, appoint, discipline, terminate, 
and fix the compensation, terms, and conditions of employment of 
Federal Service for such a number of individuals as the Under Secretary 
determines to be necessary to carry out the screening functions of the 
Under Secretary under Section 44901 of Title 49, United States Code, 
(49 U.S.C. Sec. 44935 Note).''

    The footnote has been interpreted by courts and administrative 
proceedings as granting TSA almost unreviewable authority over TSO 
employment rights. AFGE was the first union to file judicial challenges 
to this interpretation beginning in 2003, and we continue to do so in 
2019. Congress has never before or since granted any other agency head 
this level of authority over a group of employees, and for good reason.
    In the past, I submitted testimony to Congress describing TSA 
working conditions as ``separate and unequal.'' TSA implemented two 
personnel systems: One created solely for TSOs and one for all other 
TSA employees, managers included, based largely on the Federal Aviation 
Administration (FAA) personnel system that applies most of Title 5 of 
the U.S. Code. Over 44,000 TSOs are denied the ability to appeal 
adverse personnel decisions to an objective, outside body like the 
Merit Systems Protection Board (MSPB) or through negotiated grievance 
procedures. However, like most Federal workers, TSA managers can appeal 
adverse personnel decisions (including removals) not only to the MSPB 
but to the U.S. Court of Appeals. TSOs are subject to a cumulative 
disciplinary system unlike the progressive disciplinary system applied 
across other Federal agencies, including other DHS components. For too 
long, the TSO workforce has performed their jobs effectively, 
efficiently, and with a professional demeanor, all the while under 
duress largely at the hands of TSA management.
    Two recent events rightfully drew the attention of lawmakers and 
the public to the detrimental situation of the TSO workforce: The 
disproportionately severe impact of the 2018-2019 Government shutdown, 
and documentation that TSA's personnel policies are directly linked to 
TSO retention as set forth in the March 29, 2019 DHS Office of 
Inspector General Report (OIG), TSA Needs to Improve Efforts to Hire, 
Retain, and Train Its Transportation Security Officers. The Government 
shutdown focused attention on the commitment of TSOs to remain on the 
job on the front lines of aviation security for over 1 month without 
pay. The DHS OIG report supported AFGE's position that TSA's personnel 
policies make it harder for the agencies to hire new TSOs and retain 
TSOs. These policies also make it harder for TSOs stay on the job and 
apply their experience, and that is harmful to security. Both the 
shutdown and TSA personnel policies are a bitter pill for the TSO 
workforce to swallow.
                      partial government shutdown
    Late December 2018, TSOs received their last full paycheck and they 
did not receive another full paycheck until the second week of February 
2019. When the money from their December 31st paychecks ran out, TSA 
advised TSOs to ``barter'' for goods and services and to ``work off'' 
debts to creditors because the agency made it difficult for TSOs to 
take a second job. TSA initially told TSOs it was a violation of agency 
rules to accept gas or grocery cards from anyone--including their 
union, AFGE. TSA only approved food distributions at airports after 
media reports of TSOs and their families utilizing food banks and 
filing for SNAP benefits. Despite media reports, AFGE was never aware 
of any organized TSO callouts to protest the shutdown. We were fully 
aware that toward the end of the shutdown TSOs lacked the funds to fill 
their gas tanks or pay for mass transit.
    The shutdown might be over for the public and the Executive and 
Legislative branches, but the impacts continue for the TSO workforce. 
Not all TSOs received back pay in a timely manner. Not all creditors 
were willing to work with Federal workers who missed payments during 
the 35-day shutdown. We know TSOs burned through sick leave when they 
were unable to pay for child care or afford the commute to work. The 
long-lasting effects of the shutdown continue to have a direct effect 
on TSOs' personal finances, as well as workplace morale.
                         tsa personnel policies
    TSA's application of its authority of the ATSA footnote has created 
a personnel system that repeatedly leads to dismal workplace 
satisfaction rankings. We know from the results of the most recent 
``Best Places to Work in the Federal Government'' survey that TSA 
employees failed to rank the agency above the lowest quartile (25 
percent) in any category with the exception of training. In addition to 
TSA coming in dead last on satisfaction with pay, TSA employees 
provided remarkably low scores on the fairness of leadership, matching 
employee skills to the mission, performance-based rewards and 
advancement, and teamwork and innovation. The low marks of this survey 
correlate with concerns AFGE has raised for the past 17 years.
                                  pay
    I began this testimony by noting that TSA cannot provide aviation 
security on the cheap. Because TSA has abused its authority under the 
ATSA footnote to shortchange its employees, the agency has actually 
made it harder to recruit and retain the career, professional workforce 
the public demanded following the terrible events of 9-11. TSA 
administrators have continued to disappoint the TSO workforce by 
failing to request additional funding from appropriators for a 
meaningful pay increase for long term TSOs. TSA administrators have, 
however, placed priority on funding requests for technology and 
canines.
    The average starting salary for TSOs is about $35,000. A newly-
hired TSO begins in the D pay band and is required to complete a 2-year 
probationary period during which time there can be no disciplinary 
action. At the completion of probation, TSOs automatically receive the 
E pay band in addition to any Employee Cost Index (ECI), an annually-
recommended Federal civilian employee pay increase. The majority of 
TSOs then remain stagnant at the E pay band for their entire career. In 
the event a TSO can secure a promotion to a Lead TSO, they go up one 
pay band to an F pay band. But the outlook from there is grim; TSA 
recently eliminated the ability of bargaining unit employees to be 
promoted to a G pay band position.
    If TSOs can score high enough on the Transportation Officer Pay 
System, or TOPS evaluation, they may be eligible for a one-time bonus 
or a slight increase in salary. The TOPS ``payout''--a combination of a 
percentage pay raise and bonus depending on evaluations and other 
factors--varies from year to year subject to the administrator's 
announcement. Last year, the TOPs award for the highest rating of 5--
achieved excellence, or 4--exceeds expectations was a 1 percent pay 
increase. If you scored a 3--achieved expectations, you received no pay 
increase. These inconsistent and miniscule performance-based increases, 
particularly when they are not combined with a time-in-grade increase, 
do very little to retain or reward the front-line aviation security 
workforce that protects us around the clock.
    Any bonuses a TSO may earn under TOPS are not included in TSO base 
salaries and are not part of the calculation for their retirement under 
Federal Employee Retirement System. TSOs' lack of opportunity for 
salary increases today has long-term financial consequences--less 
retirement income later in life. By contrast, most Federal workers have 
been compensated under the General Schedule (GS) pay system, which has 
been reformed and updated many times since its inception in 1949. The 
GS pay system includes step increases at various intervals to employees 
with satisfactory performance. When there is not a pay freeze, they 
also receive annual salary adjustments that include a Nation-wide and 
locality component. These pay adjustments are based on objective market 
data from the Bureau of Labor Statistics and mirror the size and 
direction of salaries in the private sector and State and local 
government. The GS pay system is notable for the absence of pay 
discrimination; people in the same job with the same level of 
performance receive the same salaries regardless of race, gender, age, 
or other attributes unrelated to the job they do for the American 
people.
    Administrator Pekoske has advertised the Career Progression Program 
as a career path for TSOs that will both improve retention as TSOs move 
up the ladder and a means to improve pay. AFGE appreciates 
Administrator Pekoske's intentions, but the Career Progression Program, 
which TSA did not negotiate over with the Union, does not meet those 
goals. The Career Progression Program only assists new-hires in 
receiving pay increases to an E-band level more quickly than before but 
does absolutely nothing for long-term employees.
    Additionally, as pointed out in the DHS OIG report, additional 
funding is needed to fill program positions. TSA has also promoted a 
new On the Job Trainers (OJTs) program as a way for officers to receive 
extra incentive pay but these opportunities are very limited and do not 
change an officer's salary. Federal Security Directors (FSDs) and other 
management determine how many OJTs they need depending on operational 
need and they decide who gets to be an OJT.
    Many airports are located near major metropolitan areas with high 
costs of living. Many TSOs cannot afford a 2-bedroom apartment or pay a 
car note on their salaries. At airports such as San Jose International 
in Silicon Valley, TSA has offered TSOs recruitment and retention 
bonuses to maintain its workforce. At the Seattle-Tacoma International 
Airport, TSA was required to raise TSO pay in response to the city's 
implementation of a minimum wage increase. TSA currently identifies 89 
TSO essential job functions in its current TSO medical guidelines and 
has established rigorous standards for employment. TSOs are readily 
employable throughout the airport and other Federal agencies. The 
advantages of seeking employment with another Federal agency are 
substantial for a TSO: A likely significant pay increase, clear and 
achievable career progressions, full civil service rights under Title 5 
of the U.S. Code, and the ability to maintain their commitment to 
public service. TSA is investing money to hire, train, and employ an 
officer only to see them leave for higher-paying private employment or 
go to another Federal agency within the GS pay system.
    Finally, it is important to note that high-ranking TSA officials 
are paid under the Title 5 guidelines for the Senior Executive Service 
and the agency has sought special discretion to increase the pay of 
upper management. The 100 highest-paid TSA employees all earn over 
$175,000 annually. By pointing out the disparity in pay between TSOs 
and the top brass at the agency we make no assumption that the 
executive pay is unearned. AFGE does find it highly inappropriate that 
the pay disparity between TSA management and TSOs is comparable to the 
pay difference of Walmart store managers and sales clerks.
          tso retention issues lead to tso staffing shortages
    The findings of the DHS OIG report confirms AFGE's warnings that 
TSA has become a revolving door for the TSO workforce at many airports. 
TSA emphasizes the hiring of part-time TSOs even though the group is 
the most likely to leave the agency after a short period on the job. 
The information TSA provided the DHS OIG indicating the agency's 
attrition rate is at the same level as the rest of the Federal 
Government does not match what AFGE members witness at airports. TSOs 
at checkpoint are not OJTs, yet they assist the many newly-hired TSOs 
as they learn their duties and have noted that many appear ill-
prepared. TSO schedules at some airports are constantly manipulated to 
meet airline arrivals and departures. As a result, TSOs have little 
stability in their schedules. Because there is little room in TSA's 
staffing decisions, at some airports nursing mothers report managers 
expect them to express breast milk only at specific designated times 
and are refused breaks as needed. Other TSOs have reported denial of 
bathroom breaks resulting in unnecessary and demeaning accidents. AFGE 
recommends that TSA hire an additional 5,000 TSOs to replace the staff 
decline allowed as passenger flows increased; increase starting 
salaries for new TSOs and provide pay increases to retain long-term 
TSOs; fully train new TSOs before deploying them to checkpoints; and 
work with the union to increase the retention of women TSOs.
        many tso s perceive tsa to be a hostile work environment
    The results of the DHS OIG report on TSA recruitment and retention 
of its TSO workforce matched AFGE's Freedom of Information Act (FOIA) 
data which revealed that over a 10-year period between 2008 and 2018, 
TSA replaced its approximate 44,000 workforce. TSO duties are not easy. 
The initial responsibility for the safety of the flying public is 
assigned to TSOs screening passengers and baggage. Dealing with 
passengers can be stressful and physically taxing, however, AFGE 
represents thousands of Federal employees with stressful and taxing 
positions. The difference is that Federal employees outside of TSA 
represented by AFGE do not work under the smothering cloak of 
unfairness described by their TSO brothers and sisters.
    Under TSA's interpretation of ATSA, the agency makes and breaks the 
rules of employment. TSA reinvents pay standards annually. Airport 
checkpoints are often the fiefdoms of TSA management, reducing the 
likelihood of consistency between checkpoints or baggage screening 
areas. All levels of TSA management exercise extensive discretion in 
supervision and discipline of TSOs.
    The late TSO Robert Henry was an AFGE member. Mr. Henry is the TSO 
who tragically took his own life at Orlando International Airport on 
February 2, 2019, and we mourn his loss. While we have no doubt that 
stress from lack of pay during the shutdown contributed to TSO Henry's 
suicide, we learned from fellow union members that he was the target of 
bullying and harassment at the hands of some in TSA management at the 
airport. Upon inquiry, AFGE learned that although TSO Henry and his 
colleagues complained about his mistreatment to TSA management, neither 
they nor TSO Henry was aware of steps taken to stop the bullying or 
discipline his harassers. In the months since TSO Henry's death, we 
have learned that TSO Henry's harassment was far from an isolated 
incident, and our Local presidents are concerned about suicides among 
their members. Below are some of the situations described by TSOs in 
response to an AFGE on-line survey:
  <bullet> 3-year TSO at a Cat I airport: Bullying from passengers, 
        lack of support from supervisors and managers. My airport is a 
        horrible place to work.
  <bullet> 9-year TSO at Cat X airport: I've reported it (name calling, 
        demeaning nicknames, ostracism, unnecessary supervision, 
        disparate treatment for mistakes and other behaviors) 
        personally. I've reported it on behalf of union members as 
        well. This garnered me reprisal, hostility, targeting, unfair 
        discipline, an attempted termination, etc.
  <bullet> 6-month TSO at Cat II airport: I did not report this 
        information (bullying behaviors) to a supervisor because the 
        supervisor was the offending party. Disparate treatment is the 
        corporate culture at our airport. Random and capricious 
        enforcement of rules and regulations, some people have been 
        ostracized, training was so poor that one person was unable to 
        complete training, abuse of leave, time off, and breaks by some 
        people is not addressed which leaves the rest of us holding 
        down the fort . . . 
  <bullet> 9-year TSO at Cat I airport: At the checkpoint where I 
        currently work, it is not bad compared to other checkpoints at 
        my airport. Everyone wants to work at this checkpoint because 
        we have the best supervisors and a great manager that listens 
        and tries her best to help, although there is only so much that 
        she can do because upper management is lacking horribly. Some 
        of the other checkpoints are very bad though, supervisors would 
        yell at TSO's right in front of passengers or micromanage every 
        situation and not give you room to do your job. One checkpoint 
        has no air conditioning, people have passed out from heat 
        exhaustion and nobody has done anything to fix it. All in all, 
        my airport isn't as bad as most, but the stress of the job and 
        upper management definitely affects my health. I was forced to 
        get FMLA just so that I wouldn't get fired for all of the 
        health problems I've been having since working here. I don't 
        know how much longer I can do it. Call-out rates are extremely 
        high for a reason. They need to realize what is going on here 
        and do something fast. We need to at least be more reasonably 
        compensated for the work that we do day in and day out.
  <bullet> 9-year TSO Cat I airport: Filed grievance because of 
        Supervisory Transportation Security Officer (STSO) behavior 
        toward me. STSO violated employee code of conduct through 
        intimidation and bullying unbecoming of a supervisor. Grievance 
        denied by SRO. No investigation. Currently deciding on my 
        options.
  <bullet> 2.75-year TSO Cat X airport: Misgendering and being called 
        by various male names as a transgender woman, berated for a 
        ``bad patdown'' that everyone else saw no problem with, and 
        then listed as temporarily not fit for duty for 6 months.
  <bullet> 2.8-year TSO Cat X airport: Thankfully I've been able to 
        cope with the stress as a previous work experience equipped me 
        to deal with it. But the resources available to my other peers 
        you might as well call a joke because that's what it is. In my 
        opinion if we had Title 5 protection the working atmosphere 
        would indeed improve because leadership will be very aware of 
        the consequences of the wrongdoing.
    These and other responses from across the country were strikingly 
similar in their details: Unfair treatment, no remedy when reported to 
management, and almost certain retaliation.
    Unwarranted disciplinary actions against TSOs present an 
opportunity for badly-trained and poorly-managed supervisors to 
victimize TSOs. In 2018, TSA modified their table of penalties for the 
TSO workforce based on a fundamental misunderstanding of the concept of 
progressive discipline. Progressive discipline provides increased 
penalties for particular types of conduct. Under TSA's version of 
progressive discipline, for example, a tardy will count as the first 
offense, an unrelated uniform violation as a second offense that 
includes a more severe disciplinary action which could lead to a 
proposed removal even though a tardy and a uniform violation are 
completely different forms of misconduct. There is little incentive to 
the employee to improve behavior or misconduct.
    Each disciplinary action remains in the TSO's personnel files for 2 
years. The mandatory 2-year presence of a previous disciplinary action 
in a personnel file negatively affects almost anything a TSO attempts 
to do at the agency. TSOs with disciplinary actions in their personnel 
files cannot transfer to another airport and face disqualification from 
the Career Progression program. Any corrective action, discipline, or 
sick leave restriction during the 12 months prior or during the OJT 
assignment is a disqualification and eliminates a large score of 
employees from receiving the highest TOPS rating.
    The unrelentingly harsh disciplinary policies of TSA do not create 
a work environment that fosters workforce performance growth and 
improvement. A disciplinary action grinds a TSO's forward progress to a 
halt for at least 2 years. It is difficult for TSOs to clear their 
record without the right to appeal adverse personnel actions to the 
MSPB or a negotiated grievance and arbitration process.
      availability of counselling and employee assistance programs
    AFGE is concerned about reports from Local Presidents regarding the 
availability of counselling and Employee Assistance Programs (EAP) 
following suicides of TSOs working at their airports. While some said 
TSA provided ready access to counsellors, others relayed that 
counsellors spoke at shift briefings and their colleagues did not feel 
free to express themselves in public. Responses to our on-line TSO 
surveys described several instances of TSOs being unaware of EAP 
programs or how to receive help. TSA's on-line link to EAP programs 
sends TSOs to a Federal Occupational Health website. It is unclear if 
resources specifically tailored to the stress of TSO duties are 
available to the workforce.
                  the future of u.s. aviation security
    Seventeen years ago, TSOs organized the first AFGE TSA local 
indicating a clear preference for union representation. They stood up 
for the union without statutory protections of their right to organize. 
AFGE is committed to the fight for full civil service rights and 
protections for the TSO workforce. Low pay, stressful duties, and a 
sense of unfairness create a trifecta for low morale and hopelessness 
that impedes the ability of TSOs to boldly serve as the front line of 
U.S. aviation security.
    During Administrator Pekoske's April 9 testimony before this 
subcommittee, he would not commit to upcoming collective bargaining 
negotiations with AFGE. Our TSO membership has observed Administrator 
Pekoske's dismantling of the quarterly labor-management meetings while 
promoting the newly-formed Administrator's Action Group (AAG). AFGE, 
elected as exclusive representative of the entire TSO workforce--the 
bargaining unit defined by TSA--is conspicuously absent from the AAG. 
Currently, the AAG, along with FSDs, STSOs, and other managers are 
discussing a new awards program even though awards programs are a 
subject of collective bargaining as defined by TSA. It appears the AAG 
is a crude attempt at forming a company union within a Federal agency. 
Therefore, AFGE applauds the recent letter to Administrator Pekoske 
signed by majority Homeland Security Committee Members advocating for 
continuation of collective bargaining with AFGE and recognizing that 
bodies like the AAG will not exist as a substitute for the union 
elected by the TSO workforce to represent them.
    We appreciate the continued advocacy of Chairman Thompson and House 
Appropriations Committee Chairwoman Nita Lowey in support of title 5 
rights for the TSO workforce. Their legislation, H.R. 1140, the Rights 
for Transportation Security Officers Act, is approaching almost 100 
cosponsors in the House. When enacted into law the Rights for 
Transportation Security Officers Act, and its Senate companion, S. 944, 
the Strengthening America's Transportation Security Act introduced by 
Senator Brian Schatz, will provide permanence and predictability of the 
statutory rights and protections of title 5 of the U.S. Code, the 
fairness of negotiated grievance and arbitration provisions, and MSPB 
appeal rights lacking in the work lives of the TSO workforce.
    Thank you for holding this hearing and for the opportunity to speak 
on behalf of the TSO workforce represented by AFGE. I am prepared to 
answer any questions the subcommittee may have.

    Mr. Thompson. Thank you for your testimony. I now recognize 
Mr. Lyttle to summarize his statement for 5 minutes.

    STATEMENT OF LANCE LYTTLE, MANAGING DIRECTOR, AVIATION 
                   DIVISION, PORT OF SEATTLE

    Mr. Lyttle. Thank you, Chairman Thompson, Chairman Correa, 
Ranking Member Lesko, and Members of the subcommittee, it is an 
honor for me to testify today. I am Lance Lyttle, managing 
director of Seattle-Tacoma International Airport. Sea-Tac 
serves one of the hottest economies in the country, which has 
made us the eighth-busiest airport in the United States. This 
increase in passengers is straining the capacity of our 
airport, and our security checkpoints.
    One of our top priorities is efficient security screening 
of passengers. We want to avoid large group of travels on the 
public side of the airport, which is both a customer service 
and security issue. Lines that stretch through the terminal, 
past the ticket counters, over the sky bridges and into the 
parking garages compromise our ability to ensure public safety. 
Yet, we see the scenario too often, even before our summer peak 
season has begun, including just this weekend.
    The ability of TSA to hire and retain staff is a major 
contributor to this challenge. In my time at Sea-Tac, TSA has 
never had the staff to open every screening lane. This is 
because it is difficult for TSA to attract and retain workers. 
A Bloomberg law study found that between 2012 and 2016, TSA 
hired 858 TSOs at Sea-Tac but lost 772, which is an attrition 
rate of 90 percent. In the last 2 months alone, approximately 
80 TSOs have left for other jobs. This is a not a criticism of 
TSA leadership, the local $15 minimum wage and robust economy 
means that someone can choose between working an entry-level 
job, or protecting our Nation's aviation security.
    The recent news of potential TSA staffing at the U.S. 
Southern Border has all airports very concerned. Significant 
diversion of TSOs would reduce TSA's ability to open all 
security lanes during morning peak this summer, which could 
result in lines out of our parking garage as often as 4 to 5 
days per week.
    Before I go further, I want to share our appreciation for 
our local TSOs during the recent Government shutdown. The 
dedication with which they came to work every day was awe-
inspiring. We are grateful for their professionalism during an 
incredibly stressful time. I also want to acknowledge that TSA 
leadership has been very engaged with us. For example, TSA has 
approved a temporary increase in wages for Sea-Tac TSOs, now 
starting at more than $20 an hour. TSA also promised to assign 
50 National deployment force TSOs for the summer.
    The most effective way for a TSA to remain fully staffed at 
our airport is increased retention rates. Not only is it 
expensive to hire TSOs, but it can take months for a new 
officer to be certified to perform all functions. Lower 
turnover rates and decreased cycle time for recruitment and 
training will lead to more efficient and effective TSOs. This 
is especially urgent because the changes of TSA passenger 
screening canine protocols have significantly reduced the dog's 
use in addressing wait times.
    To compensate, Sea-Tac has had to make significant 
investment of its own money, including providing port staff and 
to perform nonregulatory TSA functions, which we can't afford 
to continue indefinitely.
    Let me close by saying, I don't have all the solutions to 
the challenges that TSA faces in hiring and retention. I can 
say, however, that higher compensation is an important part of 
the puzzle, because our own security screeners who staff 
checkpoints for airport employees start at $21.71 per hour, and 
we have very little turnover in those jobs.
    Our vision for Sea-Tac is a world-class security and 
customer experience. We don't want travelers stuck waiting in 
security lines, and we don't want large groups on the public 
side of the airport creating a potential soft target. So 
sufficient TSA staffing is essential to achieve those goals, 
and I look forward to working with you to achieve them.
    Thank you again for the opportunity today and I look 
forward to any questions that you may have.
    [The prepared statement of Mr. Lyttle follows:]
                   Prepared Statement of Lance Lyttle
                              May 21, 2019
    Thank you, Chairman Thompson, Ranking Member Rogers, Chairman 
Correa, Ranking Member Lesko, and Members of the subcommittee for the 
opportunity to testify today on the importance of the Transportation 
Security Administration (TSA) workforce to the efficient, secure, and 
reliable operation of airports. It is an honor for me to be here.
    My name is Lance Lyttle, and I am the managing director of Seattle-
Tacoma International Airport (Sea-Tac). Before I address today's topic, 
let me start by providing some context about our airport, both in terms 
of our region and the passengers we serve.
    Sea-Tac serves one of the hottest economies in the country. With 
innovative companies such as Amazon, Boeing, Microsoft, and Starbucks 
along with disruptive startups in biotechnology, global health, retail, 
manufacturing, and information technology, the Seattle region's economy 
is booming and has one of the fastest-growing populations in the 
country.
    The unemployment rate in our county is now at 3.6 percent as of 
March 2019. That figure contributes to a highly competitive job market, 
which is driving wage increases from employers large and small. In 
addition, both the city of Seattle and the city of SeaTac (where our 
airport is located) have instituted $15 minimum wages.
    This regional economic growth has been a major factor in making 
Sea-Tac the 8th-busiest airport in the country in terms of passenger 
volumes, increasing from approximately 31 million travelers served in 
2010 to almost 50 million last year. We are proud of the role we serve 
in the region's on-going economic vitality--making travel to and from 
the Seattle region convenient, accessible, and affordable--but this 
growth is straining the capacity of our airport and specifically our 
security checkpoints.
    One of our airport's top priorities is ensuring swift and reliable 
processing at TSA passenger screening checkpoints. We see this need 
both as a customer service issue as well as a security issue--avoiding 
long lines of travelers on the public side of the airport who become 
potential soft targets. When we have lines that stretch through the 
terminal, past the ticket counters, over the skybridges, and into the 
parking garages, our ability to ensure perimeter security is 
compromised, to say the least.
    Unfortunately, we have seen that exact scenario on a regular basis 
at Sea-Tac, even before we enter our summer peak travel period. Average 
wait times--based on how we measure wait times, which is different than 
TSA--are often double our 20-minute goal for throughput. This summer we 
expect to regularly see over 70,000 travelers per day at TSA 
checkpoints.
    Our terminal facilities are certainly insufficient for the 
processing of that many travelers, but there is no doubt that the 
ability of TSA to hire and retain sufficient staffing is also a major 
contributor to this challenge. In my time at Sea-Tac, TSA has never had 
the staff to open every single screening lane at our airport. We 
believe that opening every lane would allow TSA to process 
approximately 5,800 passengers per hour, which is about what we see on 
a peak travel day. And so, it becomes a math problem: Do we have those 
lanes open to process passengers in a timely manner, or do we have long 
wait times, compromised security, frustrated travelers, and missed 
flights?
    Ensuring sufficient staffing to fully open our checkpoints is not 
necessarily a Congressional or a TSA budget issue, but rather the 
result of local TSA management having an incredibly difficult time 
hiring to meet its allocated staffing number. In fact, at Sea-Tac, TSA 
loses Transportation Security Officers (TSOs) almost as fast as it 
hires them. A Bloomberg Law study found that--between 2012 to 2016--TSA 
hired 858 TSOs at Sea-Tac but lost 772. This is a 90 percent attrition 
rate. Over the last 2 months alone, as many as 80 TSOs have left Sea-
Tac for other positions in the region.
    I point this out not as a criticism of local TSA leadership but 
simply to highlight the incredible challenge they face. Despite their 
best efforts with hiring fairs and recruiting bonuses, a hot local 
economy and a $15 minimum wage mean that someone can choose relatively 
equally between working at any entry-level job in the local economy and 
protecting our Nation's aviation security. And the alternative job 
often doesn't require the same challenges as being a TSO, in terms of 
both customer interactions and security responsibilities.
    Sea-Tac is not alone in facing TSO hiring and retention challenges. 
While we certainly have unique aspects of our economy, several other 
regions throughout the country have highlighted these issues--from 
Minneapolis-St. Paul to Denver to Boston to Nashville. It is no 
coincidence that these are all fast-growing regions, both in terms of 
their economies and their populations, which makes TSO hiring 
difficult.
    The recent news of TSA staffing needs at the U.S. Southern Border 
has all of us in the airport industry very concerned. Any significant 
diversion of TSOs away from our airport reduces the likelihood that TSA 
will be able to open all 31 of our security lanes during morning peak 
this summer. Given our current staffing levels, major reassignment of 
screeners could result in passenger screening lines out to our parking 
garage as often as 4 to 5 days per week this summer.
    Before I go any further, I want to take a moment to share our 
appreciation for the commitment of our local TSA workforce. Thanks to 
their dedication, we avoided TSO staffing challenges at Sea-Tac during 
the Federal Government shutdown at the beginning of this year. The 
dedication with which TSOs came to work every day--regardless of the 
financial pressures they faced without a paycheck--was truly awe-
inspiring, and we are deeply grateful for their professionalism and 
positive attitude during what must have been an incredibly stressful 
time. We were honored to be able to celebrate and support them during 
this period with donations from the community.
    I also want to acknowledge that TSA leadership has been very 
engaged with us on the staffing and retention issues at Sea-Tac. TSA 
Administrator Pekoske earlier this year approved a temporary increase 
in wages for TSOs in economies like Seattle, and Sea-Tac TSOs now start 
at more than $20 per hour. We deeply value the collaborative 
relationship we have with TSA, and their partnership with us on 
providing effective security while minimizing wait times at our 
airport. TSA leadership plans to assign 50 temporary National 
Deployment Force (NDF) TSOs to our airport this summer to help 
counterbalance the shortage in permanent staffing.
    However, a major international hub airport like ours cannot rely on 
temporary measures to solve our wait times issues. TSA needs to be 
fully, permanently staffed at our airport to handle our growing 
passenger volumes, and the most effective way to achieve that goal is 
to increase retention rates. Not only is it expensive to keep hiring 
new TSOs, but it can take months for a new officer to be fully 
certified to perform all regulatory functions; at our airport right 
now, there are over 50 level 1 and level 2 TSOs who are limited to exit 
lane staffing, divestiture, travel document checking, and other basic 
functions. These new hires then wait for a slot at the Federal Law 
Enforcement Training Center in Glynco, Georgia and must be away from 
the airport for several weeks to get trained. Lower turnover rates--
combined with decreased cycle times for recruitment, hiring, and 
training--will lead to more efficient and effective TSA officers who 
can help us meet both our throughput and customer service goals. 
Perhaps more importantly, we know that those officers will also be 
better at ensuring security at our airport and for our travelers.
    As a side note, one of the reasons that we are so concerned about 
staffing levels is that changes to protocols for TSA passenger 
screening canines have made that resource significantly less efficient. 
These dogs used to be our solution to compensate for staffing 
shortages, because they could double the throughput of screening lanes. 
With the new operational directive--which I fully appreciate was done 
for security reasons--these canines only provide a modest increase in 
efficiency. I share this development not to ask for a change in canine 
protocols, but to point out that staffing levels are now the primary 
tool in our toolbox for addressing wait time issues, other than 
incremental technology improvements.
    The other impact of TSA staffing shortages has been on the 
airport's own resources. Because of long wait times and our focus on 
ensuring a positive customer experience, Sea-Tac has made significant 
investments of its own money: Adding additional lanes at existing 
checkpoints, installing exit lane technology and Automated Screening 
Lanes, and even providing Port and contractor staffing on a voluntary 
and temporary basis to perform non-regulatory functions--such as exit 
lanes, queue management, and divestiture--so that TSOs are freed up for 
core responsibilities. We cannot afford to continue to shoulder this 
burden.
    Let me close by saying that I don't have all the solutions to the 
challenges that TSA faces in hiring and retaining its workforce. As 
I've mentioned, the factors impacting this challenge--particularly for 
an airport like ours--are diverse and complicated, and there clearly 
isn't one magic solution. My goal today is simply to help explain how 
TSA workforce issues directly impact airports and their travelers.
    I do believe, however, that higher compensation is an important 
part of the puzzle, because of the natural experiment taking place at 
our airport. Sea-Tac is one of the few airports in the country that 
conducts full employee screening, requiring all airport workers 
traveling to the sterile side of the airport to go through a security 
screening process that is similar to a TSA checkpoint. To handle this 
work, the Port of Seattle has hired close to 80 employees--represented 
by the ILWU--as our Full Employee Screening (FES) team. Those FES 
employees receive a starting wage of $21.71 per hour, and we have had 
extremely little turnover in those jobs. Of course, the FES checkpoint 
is much less challenging than a TSA checkpoint because of the travelers 
themselves, but the analogy is certainly indicative.
    Our vision for Sea-Tac is a world-class security and customer 
experience, and that's why we're committed to meeting our region's 
growing air travel demand with an improved level of service: Addressing 
road and curbside congestion, minimizing terminal crowding and reducing 
airfield delay. We want our travelers to enjoy our exciting new dining 
and retail offerings, not be stuck waiting in a security line. And we 
certainly don't want large groups of people on the soft side of the 
airport creating a potential target for those with bad intentions. 
Sufficient TSA staffing is an essential component to those goals, and I 
welcome the opportunity to work with all of you to achieve them.
    Thank you again for the opportunity today, and I look forward to 
any questions you may have.

    Mr. Thompson. Thank you for your testimony. I now recognize 
Mr. Neal to summarize his statement for 5 minutes.

     STATEMENT OF JEFFREY NEAL, SENIOR VICE PRESIDENT, ICF

    Mr. Neal. Good morning, Chairman Thompson, Ranking Member 
Lesko, and Members of the subcommittee. I am honored to appear 
before this subcommittee to discuss the work of the Blue Ribbon 
panel and our findings and recommendations. The panel was 
chartered by TSA at the direction of Administrator Pekoske to 
provide a neutral third-party review of TSA's Human Capital 
operations. He also asked that we examine how Human Capital 
policy decisions have affected the Transportation Security 
Officer workforce.
    Other members of the panel are former OPM Deputy Director 
Dan Blair, former Partnership for Public Service Vice President 
John Palguta, and noted labor economist, Dr. Laurie Bassi. We 
conducted a series of interviews, 36 focus groups with TSOs, 
and analyzed survey results, reports, and other data. Our 
findings were in two areas, two major areas: Support for the 
TSO workforce, and Human Capital service delivery. TSO has 
identified multiple drivers of morale problems and turnover, 
including perceptions of favoritism and promotions and work 
assignments, inadequate pay, and challenging working 
conditions. The most significant of those was pay.
    The panel found TSO pay was competitive at some airports 
and not at others. High TSO turnover during the first 2 to 3 
years, and performance management and pay policies mean an E-
Band TSO with an outstanding performance rating could take 30 
years to reach the top of the Pay Band. The panel made multiple 
recommendations regarding pay, Pay Band progression, use of 
promotion boards to provide transparency in promotions, 
establishing new TSO positions in higher Pay Bands, and use of 
predictive modeling to assess the effects of pay on turnover.
    Improving TSA's Human Capital programs requires an 
effective Human Capital infrastructure. TSA Human Capital 
services are provided by a mix of the Office of Human Capital, 
airport staff, and three major contractors. The panel found 
that TSA needs to do much more to define and coordinate the 
work of those groups.
    The panel also found that improvements are needed in the 
Office of Human Capital. Some areas, such as position 
classification, experience an overwhelming workload aggravated 
by their own policy decisions. We found disjointed Human 
Capital systems to create inefficiencies, make errors more 
likely, and require significant work-arounds to consume 
valuable labor hours.
    The field H.R. staff we interviewed were also striving to 
deliver good service, but did not have consistent H.R. 
training, and were not always permanently assigned to H.R. Our 
recommendations to address this situation included permanent 
assignments, standard job descriptions, better training, and 
aligning the jobs with TSA's new Human Capital business partner 
positions. We believe these will ensure a stronger field H.R. 
staff who are better equipped to meet the needs of TSOs.
    We interviewed project leaders from the firms providing 
H.R. services who reported some of the same IT problems as 
Federal staff, amplified by the lack of an integrator for the 
three major contracts. Each firm offered ideas for improving 
services.
    The panel made several recommendations for improvements to 
the 270-day TSO hiring process. The lag between applying and 
beginning work causes many applicants to drop out, as does the 
technology supporting hiring. For example, the panel learned 
that many applicants who attended recruiting events did so 
because they were unable to apply via USA Jobs. Increased 
competition for talent means a 9-month process will cause 
significant hiring challenges for TSA. TSA's ATSA flexibilities 
should enable it to make improvements to its hiring process.
    Finally, the panel heard many suggestions that TSA 
transition to the General Schedule to solve pay and hiring 
problems. We share concerns regarding TSO pay, but believe the 
General Schedule would not solve the problems. Most good 
Government organizations have recommended replacing it with a 
system that is better suited to today's workforce. 
Transitioning the TSO workforce to the general schedule could 
also have unintended consequence and result in pay raises in 
locations where they are not needed, and inadequate pay raises 
in locations where they are very badly needed. There is no 
guarantee the general schedule would even result in grades that 
would increase overall pay.
    The panel believes the most effective way to move quickly 
to solve TSO pay is to seek additional labor dollars and use 
TSA's existing flexibilities. Thank you for the opportunity to 
testify before you today, and I look forward to your questions.
    [The prepared statement of Mr. Neal follows:]
                   Prepared Statement of Jeffrey Neal
                              May 21, 2019
    Good morning Chairman Correa, Ranking Member Lesko, and 
distinguished Members of the subcommittee. I am honored to appear 
before this subcommittee to discuss the work of the Blue Ribbon Panel 
and our findings and recommendations.
    The panel was chartered by TSA at the direction of Administrator 
David P. Pekoske to provide a neutral third-party review of TSA's Human 
Capital Operations. He also asked that we examine how human capital 
policy decisions have affected the Transportation Security Officer (or 
TSO) workforce. During our initial meeting with Administrator Pekoske, 
it was evident to the panel that he is seeking solutions to address 
human capital issues and, specifically, to deal with concerns from 
Transportation Security Officers.
    Other members of the panel are former OPM Deputy Director Dan 
Blair, former Partnership for Public Service Vice President John 
Palguta, noted Labor Economist Dr. Laurie Bassi. We interviewed members 
of TSA's Office of Human Capital staff, leaders of other Headquarters 
organizations, visited 7 airports where we conducted 36 Focus Groups 
with Transportation Security Officers. We met with the firms that 
provide much of TSA's Human Capital support, and also reviewed numerous 
TSA documents and plans, examined customer service and employee survey 
data, and conducted a variety of quantitative and qualitative analyses.
    Our findings were in two major areas:
  <bullet> Support for the TSO Workforce, and
  <bullet> Human Capital Service Delivery.
    We spent a considerable amount of our time looking at issues that 
related to the TSOs, who identified multiple drivers of morale problems 
and turnover, including perceptions of favoritism in promotions and 
work assignments, pay, and working conditions. The most significant of 
those issues was pay.
    The panel found that TSO pay was competitive in some labor markets, 
and not at all competitive in others. Some airports are competing with 
employers, such as Amazon, that draw from a similar entry-level talent 
pool. TSA has a high level of TSO turnover during their first 2 to 3 
years, and performance management and pay policies make it difficult 
for TSOs to advance in their Pay Bands. For example, an E-Band TSO with 
an outstanding performance rating could take 30 years to reach the top 
of the Pay Band. The panel noted that while TSO turnover is higher 
compared to other agencies, it is not high in comparison to many 
private-sector employers who recruit from a similar entry level talent 
pool, where turnover of 20 percent is not uncommon. What distinguishes 
TSA is the investment of significant resources in training new officers 
and their critical homeland security mission, which make turnover 
costly and disruptive. The panel made multiple recommendations to 
address TSO pay, progression within pay bands, use of promotion boards 
to provide transparency in promotions, establishment of new TSO 
positions in higher Pay Bands, and use of predictive modeling to 
determine the relationship between pay and turnover.
    Improving TSA's human capital programs requires an effective human 
capital infrastructure. TSA's Human Capital Services are provided by a 
mix of Office of Human Capital, airport staff, and three major 
contractors. The panel found that TSA needs to do more to delineate the 
responsibilities of those groups.
    The panel also found that the Office of Human Capital suffers from 
poor morale, inadequate teamwork and lack of strategic focus to inform 
policy and program decisions. Some areas, such as position 
classification, experience an overwhelming workload aggravated by their 
own policy decisions. We found a high level of frustration among the 
Human Capital staff and their customers, people who genuinely want to 
deliver good service. Some of that frustration was the result of TSA's 
disjointed Human Capital systems that create inefficiencies, make 
errors more likely, and require significant work-arounds that consume 
valuable labor hours.
    The field H.R. staff we interviewed are also striving to deliver 
good service, but often lacked training on H.R. matters needed to 
succeed. Many are former officers who have not received adequate 
training, or are on details to H.R. Some are transferred back to 
screening operations just as they become comfortable with the H.R. 
duties. The panel made a number of recommendations for addressing this 
situation, including establishing permanent assignments, standardizing 
job descriptions, providing better training, and ensuring alignment 
with newly established Human Capital Business Partner positions. The 
panel believes these will ensure a stronger field H.R. staff who are 
equipped to meet the needs of TSOs at their work locations.
    We also interviewed project leaders from the firms providing H.R. 
services. Those services include Human Capital Help Desk support, 
hiring, and technology infrastructure and systems. Most reported the 
same IT problems as Federal staff, amplified by the lack of an 
Integrator for the three major contracts. Each firm offered ideas for 
improving services.
    The panel made several recommendations for improvements to the TSO 
hiring process, which now averages about 270 days. The lag between 
applying and beginning work causes many applicants to drop out, as does 
the technology supporting hiring. For example, USAJobs is designed for 
the larger Federal workforce, including current Federal workers. TSA 
competes for entry-level talent who are not accustomed to Government 
hiring processes. The panel learned that many applicants who attended 
recruiting events did so because they were unable to apply via USAJobs. 
A 9-month hiring process in tight labor markets where private-sector 
employers make offers in a fraction of the time, combined with low 
unemployment, will cause significant hiring challenges for TSA. TSA's 
ATSA flexibilities will enable it to make improvements that are not 
available to agencies covered by Title 5.
    Finally, the panel heard many suggestions that TSA transition to 
the General Schedule to solve pay and hiring problems. If the panel 
believed such a move would accomplish those goals, we would agree. We 
believe it would not. The agencies that use the General Schedule 
complain about its inflexibility and lack of labor market sensitivity. 
It still takes 18 years to get to Step 10.
    General Schedule job classification is governed by classification 
standards that often take OPM years to develop and infrequently 
updated. The National Academy of Public Administration, the Partnership 
for Public Service, and other good Government organizations have 
recommended replacing the General Schedule with a system that is better 
suited to today's workforce, versus an outdated system designed for the 
mostly clerical workforce of 1949.
    Not only is the General Schedule inflexible, transitioning the TSO 
workforce from current pay bands to GS grades and steps could have 
significant unintended consequences. It could result in pay raises in 
locations where they are not needed, and inadequate pay raises where 
they are badly needed. In fact, there is no guarantee the General 
Schedule would result in grade levels that would actually increase 
overall pay, and any pay raises would still require appropriation of 
more labor dollars. Given all of this uncertainty, including the 
potential for civil service reform, and the likelihood that the General 
Schedule would not solve the most critical hiring and pay problems, the 
panel believes the most effective way to move quickly to solve TSO pay 
and hiring issues is to increase the use of flexibilities TSA already 
has under ATSA.
    Chairman Correa, Ranking Member Lesko, and Members of the 
subcommittee, thank you for the opportunity to testify before you 
today. I look forward to your questions.

    Mr. Correa [presiding]. Thank you very much, gentlemen. I 
recognize myself for a few questions. For AFGE national 
president, Mr. Cox, the current collective bargaining unit is 
set to expire in December of this year. Administrator Pekoske, 
at the last committee hearing, refused to commit to continue to 
allow collective bargaining at TSA.
    Can you tell us what the advantage is? What are the 
benefits of collective bargaining to the TSO workforce?
    Mr. Cox. Part of it, I believe, the law when the Congress 
has passed, it says collective bargaining is in the public's 
best interest, and the public is best served by collective 
bargaining. The TSO workforce, labor, and management sat down 
and bargained over things, such as uniform allowances, parking 
subsidies, over schedule changes, how the posting of annual 
leave, many positions and things of that nature that they 
bargain over. However, in TSA we have a very limited scope of 
bargaining. We do not have a full grievance procedure or 
arbitration procedure. We don't have the ability to go to MSPB, 
so granting full collective bargaining rights would treat them 
like all other Federal employees.
    Mr. Correa. So I heard comments earlier that we have a very 
competitive labor market at the moment. We have high turnover 
at TSA. A lot of our front-line employees seem to move in and 
out. This collective bargaining, this organized labor, any 
representation, do you bring a different perspective in terms 
of how to craft a package of benefits, say, salary, to be 
competitive enough to keep our workforce stable?
    Mr. Cox. Clearly, I think, I wages have got to be raised. I 
have heard that from every panelist here that TSOs are paid----
    Mr. Correa. Well, I think if you ask any--any of us, wages 
need to be raised, but----
    Mr. Cox. Pay is affecting it, sir.
    Mr. Correa. I think the turnover is unbelievable, and to 
me, it is scary when you really need to have a trained 
workforce that can do the job year after year, not have to 
train new entrants into that workforce year after year.
    So my question is, are you able to calibrate, are you able 
to give management some input so that we can, you know, reduce 
workforce turnover?
    Mr. Cox. Yes, sir. I believe by having a negotiated 
grievance procedure, the right to go to a third party to 
resolve disputes. The ability to have full scope collective 
bargain that all other Federal employees have, just like all 
the other employees in Homeland Security, Border Patrol, ICE 
agents, Coast Guard, Federal Protective Service, Customs, all 
of those have full Title V collective bargaining rights. Treat 
them like full U.S. citizens like other Government employees, 
and I believe you would see less turnover. You would see morale 
improve, and that that would certainly help as well.
    Mr. Correa. Mr. Cox, I am going to cut you off, I am 
running out of time. I am going to shift to Mr. Kelly. Sir, 
saving taxpayer dollars, how does a stable workforce save 
taxpayer dollars? How much do you think was wasted over the 
fiscal years 2016, 2017, over attrition? Every time you hire 
somebody there is a cost. Every time you train somebody there 
is a cost. Can you talk on that issue?
    Mr. Kelly. Well, as I----
    Mr. Correa. It costs the taxpayers beyond just the dangers 
of security or not?
    Mr. Kelly. Chairman, as I mentioned in my opening 
statement, in fiscal year 2017, TSA spent $75 million to hire 
and train roughly 9,000 individuals that they brought on board.
    Mr. Correa. Seventy-five million dollars. How much is that 
per new individual that is hired?
    Mr. Kelly. It costs TSA about $8,500 to train and hire 
someone.
    Mr. Correa. Thank you very much. That being said, I am 
going to turn over now to Mrs. Lesko for 5 minutes of 
questions. Mrs. Lesko.
    Mrs. Lesko. Thank you, Mr. Chairman.
    My first question is for Mr. Neal. Thank you for your work 
on the Blue Ribbon Panel.
    As you said in your opening statement and is in your 
report, you strongly suggest that TSA not adopt the General 
Schedule, and you gave some of the reasons why. What--what are 
the other--why would it be bad?
    Mr. Neal. Yes, ma'am. The problem with the General Schedule 
is that it is--is a very inflexible system. It was designed 70 
years ago at a time when the Federal workforce was primarily 
clerks and where the variations in pay in various labor markets 
were nowhere near as extreme as they are right now.
    So what happens with the General Schedule is you may find 
that pay raises are not really necessary for some folks in some 
places, yet because of the mechanical formula of the GS 
schedule, they would get pay raises. In other places--New York 
is a great example, JFK--where pay raises are desperately 
needed, the General Schedule wouldn't provide anywhere near the 
amount of pay that those officers would need to have a living 
wage.
    So what we concluded was that--that the pay definitely 
needs to be addressed. This is a significant problem for the 
agency. But the General Schedule is too blunt an instrument to 
do it. So the better way, we thought, was to use the 
flexibilities under ATSA to provide pay raises.
    We did recommend pay raises rather than supplemental 
locality raises, that are not actually pay raises, you know, 
where it is a retention incentive. We thought retention 
incentives were less effective because they can be taken away, 
where a base pay increase can't.
    But for the most part what we found was that it was just 
too blunt an instrument to actually be effective. So that was 
the reason we did not recommend going to the General Schedule.
    Mrs. Lesko. Thank you, Mr. Neal.
    My next question is for Mr. Kelly.
    Mr. Kelly, one of the reasons you said that there is a 
great amount of retention among TSOs is that, not only the pay, 
which we have talked about, but you said scheduling issues, I 
think especially with part-time employees. I think, from what I 
remember, you said it is because part-time employees maybe 
kind-of fill in and so they have erratic scheduling time.
    Did you have any recommendations on that particular part of 
it for TSA, and have they started working on that?
    Mr. Kelly. We had 9 recommendations to basically more 
professionalize the workforce, and we did have some 
recommendations that addressed that. I believe they are still 
working on those recommendations. I will get back to you 
specifically as to whether or not what the status is.
    Mrs. Lesko. Thank you very much. Yeah, because in the 
report, like you said--I thought you did a good job on the 
report. It highlighted serious inconsistencies at Federalized 
airports across the country relating to training, which we 
talked about, recruitment, and exit surveys.
    So what metrics can the committee look for to see if TSA is 
actually following your recommendations? What do you think we 
should look back? When you do go back and----
    Mr. Kelly. Well, we are considering doing verification 
review on these issues, because this is a critical issue, as I 
mentioned in the very beginning of my comments or oral 
statement, that there is a link between safety and retention. 
So we are very concerned with the turnover rates that exist 
with TSOs.
    People have to realize that this needs to be a profession 
as opposed to a part-time job for individuals. If we expect to 
have a secure traveling public, we need professionals 
performing at the security checkpoints.
    Mrs. Lesko. Thank you.
    Back to Mr. Neal. I think one of the problems, if I 
remember, from my readings on my plane ride here, long plane 
ride into DC, was that people at the beginning scale, the, you 
know, entry level, didn't feel like they were going to be able 
to move up and get the top salary of the Pay Bands. Did your 
blue-ribbon panel have any recommendations on how to address 
this?
    Mr. Neal. Yes, ma'am, we did. We looked at a variety of 
options. One was providing some limited longevity increases to 
get people up to the center of the Pay Band. The other was to 
provide more higher Pay Band TSO positions. Right now, TSOs are 
basically E bands. We put in a recommendation that would 
provide for increasing TSO positions, smaller numbers of them, 
all the way up, about 4 or 5 bands higher than they are right 
now, to provide some clear career paths for TSOs that they 
don't have right now.
    Mrs. Lesko. Thank you. I yield back. I went over time.
    Mr. Correa. Thank you, Mrs. Lesko.
    I would like to recognize the Chairman of the Homeland 
Security, Mr. Thompson, from the good State of Mississippi.
    Mr. Thompson. Thank you, Mr. Chairman.
    I have for quite a while looked at this pay system for 
TSOs. For the life of me, I am having difficulty in continuing 
to listen to the justification of not putting them in the GSA 
system pay scale where all other Federal employees happen to 
be. If it is so good, then why can't we just have one system? 
That bothers me.
    Mr. Kelly, are you aware of that dual personnel system that 
TSA operates under?
    Mr. Kelly. That they are not under the GS system? I 
understand that. That is correct.
    Mr. Thompson. Well, but there is a personnel system for 
TSOs and there is another personnel system for other people who 
work in the Department.
    Mr. Kelly. Yes.
    Mr. Thompson. Are you aware of any other agency that runs 
dual personnel systems?
    Mr. Kelly. I am not sure that there other agencies that 
have that situation. We did not look into the merits, or lack 
thereof, of the----
    Mr. Thompson. But you could, just on general principle, 
assume that that would be confusing at best?
    Mr. Kelly. It can be confusing. I don't know for 
specifically for which system is best for TSOs.
    Mr. Thompson. I understand. I just--I just still struggling 
with coming up with dual personnel systems for one agency.
    The other issue, Mr. Cox, we have seen people in management 
in TSA get $30,000 in bonuses. What is the--and you talked a 
little bit about it--what is the maximum a TSO can get in 
bonuses?
    Mr. Cox. Most of them receive about $500 in a bonus, if 
they get a bonus, and very few of them get bonuses. So it is a 
much smaller amount.
    Mr. Thompson. Yeah. That is part of that dual system. Now, 
to the last administrator's credit, he pulled it back to 
$10,000 as the max they could get. But that is still a long 
ways from $500 for our front-line people.
    Mr. Lyttle, as an airport director, if deployment to the 
Southern Border becomes a reality, what does that do for an 
airport like Sea-Tac and you lose people to that deployment?
    Mr. Lyttle. I really understand and appreciate the 
importance of protecting the Southern Border, and I appreciate 
the challenges that are being faced in terms of allocating 
resources. But it is also equally important for us to protect 
the airport itself as well.
    As I mentioned earlier, we are really struggling up to this 
weekend in terms of the resources that we have at the airport 
via the TSOs, right. Now, we just do not have enough officers 
to man all the lanes. I have been at the airport 3\1/2\ years, 
and we have never had enough staff to man all the lanes that we 
have, the 31 lanes at the airport.
    Just this weekend, we had lines going over onto the sky 
bridges, almost into the garages. If the TSOs are reallocated 
somewhere else, we will have lines going out into the garage.
    Mr. Thompson. So your testimony to the committee is you are 
already short of help?
    Mr. Lyttle. Yes.
    Mr. Thompson. And anything that would reduce what you have 
is--puts you at potentially a greater risk?
    Mr. Lyttle. Just going to make it riskier.
    Mr. Thompson. Thank you. Has anyone from TSA sat down with 
you and discussed the possible deployment of TSA personnel to 
the Southern Border?
    Mr. Lyttle. Not as yet.
    Mr. Thompson. Mr. Cox, have you had a discussion with 
anyone in TSA about a strategy for deploying TSOs to the 
border, what they would be doing if they got there, how much 
they would be paid once they got there, and who would pay for 
it?
    Mr. Cox. No, sir, I have not. The only thing that we have 
heard is what we read in the newspaper. We are the exclusive 
representative of the employees.
    Mr. Thompson. So your membership roster for TSOs is how 
many?
    Mr. Cox. We represent about 44,000.
    Mr. Thompson. So your testimony to this committee is that 
the 44,000 members of AFGE who are being asked to volunteer, to 
your knowledge, there is no strategy or no communication 
whatsoever that has been provided their duly authorized 
representative?
    Mr. Cox. Not to my knowledge, sir.
    Mr. Thompson. Thank you.
    Mr. Correa. Thank you, Mr. Chairman.
    I would like to recognize Mr. Katko from the good State of 
New York for 5 minutes of questions, sir.
    Mr. Katko. Thank you, Mr. Chairman.
    I thank you all for being here today. Before I get into my 
questions, I do want to make an observation. That is this: 
During the shutdown, I think the TSOs acted in an exemplary 
manner, by and large. Under extraordinarily different 
circumstances, they came to work, they did their jobs, and they 
kept us safe. That can't be underscored enough when we are 
looking at this whole issue.
    So as I often--every time I have an opportunity to say 
that, I do. We ask them to do the impossible day in and day out 
with very little pay, and I think that is very commendable of 
them, especially given the gravity of their responsibilities.
    Now, with that being said, I do want to just ask all of you 
just a quick poll question here. Do you all agree that we 
should try and get better compensation to the TSO officers? 
Everyone agree with that?
    Everyone, OK.
    So the question is how to get there, right? So let's talk 
about that a minute.
    If, Mr. Neal, you say that the Title 5 route is not the way 
to go, how can we go there and ensure that we get better pay 
for these folks and institutionalize that?
    Mr. Neal. The first step in getting better pay, obviously, 
is to appropriate more labor dollars to TSA to pay for it. 
Based on getting more money, then TSA can look at where the 
money could best be used.
    What we found is that there is a relationship between 
private-sector security guard pay and turnover among TSOs. 
Where E band TSOs are not paid well and private security guards 
are paid well, airports suffer very high turnover. So we can do 
some modeling that would show where labor dollars could be 
applied that would actually reduce turnover. Some of that 
obviously would be new money, but once you got started with 
that, a good chunk of that $70 million a year that is spent on 
recruiting and training new employees could be applied to TSO 
pay. So we think that is the way to do it.
    Mr. Katko. Thank you.
    Mr. Cox and/or Mr. Kelly, the previous two terms I was 
chair of this TSA subcommittee, and during that time, it was 
acutely aware to us that turnover was a major problem, and it 
was right around 20 percent. Has that improved at all in recent 
times?
    Mr. Kelly. The overall turnover rate is 17 percent, which 
is close to that. What is really bad is the temporary 
employees. The turnover rate for temporary employees is 26 
percent. So that is basically a quarter of a good portion of 
their employees have a--are attriting.
    Mr. Katko. Mr. Cox, given the fact that it does seem to be 
very persistent and consistent--consistently high, what kind of 
cost do you think is incurred and the waste that is incurred 
with this high turnover in training employees and losing them?
    Mr. Cox. I believe I heard that it cost $7,500 just to 
train one employee and all of the other things that goes in. It 
is millions of dollars in the process of a year. I keep hearing 
it is not good to put them on the GS scale, that there is 
problems with the GS scale, but the GS scale keeps working for 
all other Federal employees. It seems to be TSA is the one that 
is having the greatest turnover.
    So if we have got a wheel that is working, why not use it, 
put them on the GS pay scale until we can figure out something 
better?
    Mr. Katko. Right. The thing that strikes me is if you could 
save that $7,500 and dedicate it toward pay by reducing the 
turnover, you are probably in much better shape right now, 
regardless of what we do with Title 5.
    Now, I do want to end on a better note, because it is 
important that we understand that there has been some progress 
made. Administrator Pekoske has taken this issue on, and he did 
do things to try and professionalize the force and give them 
more of a sense of duty and purpose, including opening a 
training center, which I think has been a very good thing.
    When you were doing your report, Mr. Neal, what were some 
of the things you saw that gave you hope that there is some 
progress being made in the workforce management areas? Then 
finish it by telling us what we need to work on still. I know 
pay is obvious. What else?
    Mr. Neal. The administrator is clearly interested in 
improving a lot of the TSOs, and so that was very encouraging. 
Putting in place a mechanism for pay advancement for D band and 
then for E band TSOs, which they are doing now, was also a very 
positive move. So that was good.
    The things that we are looking at still are nonpay issues 
that need to be addressed are the perception of unfairness in 
the promotion process. We believe there needs to be much more 
transparency there. We recommended promotion boards so people 
would understand what it takes to get a promotion, and then 
have a group of people who are not necessarily their bosses 
deciding whether or not they get promoted. So we think that 
would be very helpful as well.
    Then making some major improvements in the office of human 
capital to be able to really run a modern and up-to-date human 
capital program in the agency.
    Mr. Katko. Mr. Chairman, I thank you for the time.
    I just want to note, please extend my heartfelt thanks to 
TSO officers. I am constantly amazed at what they do trying to 
find that needle in a haystack every day. It is so vitally 
important. We can't pay them enough, and we can't treat them as 
good as we possibly can--I mean, we should treat them as good 
as we possibly can and need to improve on both of those things.
    Thank you very much, and I yield back.
    Mr. Correa. Thank you, Mr. Katko.
    I concur with Mr. Katko, thank those employees from the 
bottom of our hearts for doing a great job under a very tough 
situation.
    Now I would like to recognize the gentlelady from Florida, 
Mrs. Demings, for 5 minutes of questions.
    Mrs. Demings. Thank you so much, Mr. Chairman. Thank you to 
all of our witnesses for being with us today as we discuss this 
very important issue.
    President Cox, I want to also thank you for your commitment 
to your members' well-being and taking the time to speak before 
us today so we can hear directly from you.
    For the years that I have been a Member of the Committee on 
Homeland Security, President Cox, you have consistently spoken 
about the strain to our TSA officers and share the long hours 
they work, often made more difficult due to erratic scheduling 
practices, and spoken of the strain on officers and their 
families who struggle to get the wages that they--that are so 
low, that are much lower than other Federal employees, 
comparatively speaking, especially when it pertains to their 
experience and their duties. I think that is a topic that we 
need to continue to address until we get it right.
    Earlier this month, TSA requested that TSOs and other 
employees deploy to the Southwest Border. I, like many others, 
wonder about the capacity in which they would be supporting 
Custom and Border Patrol operations.
    USA Today has now reported that the 400 TSA employees will 
be performing meal preparation, property management, and legal 
assistance for asylum petitioners. Now, having been assigned to 
the Orlando International Airport during 9/11, I just can't 
believe that that would be a proper use of the men and women of 
the TSA.
    But I would like to ask you, President Cox, are these 
duties commensurate with their specialized training and 
experience?
    Mr. Cox. Not to my knowledge. They are trained to do the 
screening at the airports, to look at the luggage that goes 
through the screens to be able to identify weapons, liquids, 
and those type things. I am not aware of any type training at 
the law enforcement academy on serving of meals and preparation 
of meals and those type things that goes on there.
    Mrs. Demings. You know that the men and women who serve in 
those various roles, I think we all know, on both sides of the 
aisle, that our most precious resource are the men and women 
who work for us, right, and do a very important and critical 
job. I personally know about the strains of erratic schedules, 
long hours, unanticipated schedules, and new conditions being 
introduced last minute.
    So as you, President Cox, have already talked about, if 
officers are reassigned, does this just further exacerbate an 
already overworked and burdened workforce? Could you speak on 
their behalf on that area?
    Mr. Cox. Clearly it does. I am a registered nurse by 
profession, so I understand what erratic shifts are and 24-
hour-a-day operations. With TSA, because the airlines change 
flights, there are times that the screeners come in in the 
morning and maybe some flights have been canceled. They say, 
well, please go back home, even though they showed up at 4 a.m. 
or 5 a.m., come back in at 2 p.m., work till later in the 
evening, but we want you back at 4 a.m. the next morning.
    You can maybe do that one time or two times. You can't do 
that on a daily basis because people do need rest, they have 
child care, they have responsibilities of their family.
    Mrs. Demings. You know, I heard an Army general talking 
about how he may lead an operation and certainly make very 
critical decisions. But in order to make sure that he is doing 
the right thing and making the right choices, he always talks 
to the men and women on the front line.
    I think I heard you say, I believe to the Chairman, that no 
one, to your knowledge, had really sat down and talked to you 
or any of the supervisors or men and women on the front line of 
the TSA about reassignments and getting their suggestions and 
recommendations on how they may be better utilized. Is that----
    Mr. Cox. You are correct. They have not.
    Mrs. Demings. OK. Thank you very much, Mr. Chairman. I 
yield back.
    Mr. Correa. Thank you very much.
    I now recognize Mr. Cleaver from Missouri for a round of 
questions.
    Mr. Cleaver, welcome.
    Mr. Cleaver. Mr. Chairman.
    I try always not to get angry. My football coach told me he 
was going to remove me as captain if I had a fight on the 
field. That kind-of helped me.
    This really does make me angry. I, you know, struggled with 
whether I should have come to the hearing, because I am so 
angry, which is not healthy. You know, as my coach said, the 
best players don't get angry.
    But I need to ask the question to Mr. Cox. Can you tell me 
the people who stand between me getting on a plane every week--
I average 1,800 miles a week flying--what stands between me and 
somebody bringing some kind of explosive on a plane?
    Mr. Cox. The only person standing between that is the TSA 
agent who is screening that passenger and that luggage and the 
baggage that is going on that plane. That is the only one that 
is doing it.
    Mr. Cleaver. That is weird, because the people who drive 
people to the airport make more than the TSA people. People who 
take people away from the airport make more. The people who 
serve hamburgers make more. I don't care if--that is bass-
ackwards. I mean, it is--I mean, Americans ought to be furious 
at what is going on. We pay these people almost nothing to save 
our lives every day. It bothers me.
    So, you know, we are talking about transferring $232 
million to build a wall, which people laugh about. What I need 
to also know--maybe, Mr. Neal, you can answer this--this 
question for me. What should we do to make sure they earn more 
money, other than not spend $232 million or not to take any 
money from their budget and use it toward salaries? What should 
we do?
    Mr. Neal. The quickest thing that could be done would be 
appropriating more labor dollars that are targeted specifically 
to TSO pay increases and make them base pay increases, using 
the ATSA flexibilities of--TSA got that money on October 1, and 
beginning the fiscal year, they could start paying people more 
money in October. So that would be the quickest way to get 
money in TSOs' hands.
    Mr. Cleaver. But if we have--you know, we are contemplating 
taking $64 million from the compensation fund. I don't 
understand, why couldn't the $64 million already be moved 
toward compensation?
    Mr. Neal. I--virtually any money they have that is the 
right color of money can be put in TSO compensation. You know, 
I don't know exactly which dollars they have available right 
now, and I am not familiar with where they are wanting to move 
money for border issues. That is totally outside the purview of 
my panel.
    Mr. Cleaver. OK.
    Mr. Neal. All I can see on that is what I read on the--in 
the news.
    Mr. Cleaver. Oh, so you are saying you probably don't 
believe what these newspapers are reporting?
    Mr. Neal. Didn't say that. I said all I know is what I read 
in the news with respect to where they are moving money.
    Mr. Cleaver. OK. I represent Kansas City, Missouri. We are 
one of only 2 airports in the country, as probably Mr. Cox 
knows, where the TSOs are private. They are not a part of the 
regular TSA operation, Kansas City and San Francisco, and about 
20 other smaller airports around the country.
    You know, I actually know people by names. They are not 
just the TSO. I know their names. One young lady that I--I 
remember the morning she was born, Ebony. So when I see them 
getting up before daylight going all the way out to the Kansas 
City International Airport and realizing that they are not 
being compensated, it just drives me crazy, and knowing how 
important the job is.
    My time has run out. I can do about 30 more minutes on 
this, but my time runs out.
    Thank you, Mr. Chairman.
    Mr. Correa. Thank you, Mr. Cleaver.
    Seeing no other Members, we are going to move to a second 
round of questions. If I can, I will recognize myself for first 
round of questions.
    So I am listening to everybody on the panel, and everybody 
here on this dais, we all agree that something has to be done 
to give better pay to these individuals who are essentially 
underpaid; therefore, we have massive turnover.
    Mr. Cleaver was saying he flies 1,800 miles a week. I fly 
6,000 miles a week. All of us, though, agree that those are 
high-value assets in the sky in this country every day. As I 
think about the pay, I am going to ask, how do we move forward? 
What is it mechanically that we need to do? What is the next 
step here to move in that direction of equitable pay? I am not 
talking equitable pay just for the sake of equity, but reducing 
that turnover.
    Open it up for comments from the panelists.
    Mr. Cox. Put them on the GS pay scale. It is a proven pay 
scale that is working for all other Federal employees. There is 
flexibilities in that GS pay scale. There is locality pay. 
There is other specialty pays that can be put on top of that 
for high-cost areas. That is how it is working for all other 
Federal employees. Why are these people that keep us safe since 
9/11 and done such a good job so lowly paid?
    Mr. Correa. Mr. Neal.
    Mr. Neal. Sir, actually about three-quarters of Federal 
employees are paid through the General Schedule. About a 
quarter are paid in other pay systems. So as President Cox 
said, there are locality allowances, there are retention 
allowances, there are things you can do with the General 
Schedule. Many of them take a long time. Getting special salary 
rates approved for a particular location can take OPM a year or 
2 or 3 years. So it is a very cumbersome pay process.
    During every Presidential transition for the last dozen 
years or so, the Partnership for Public Service, the National 
Academy of Public Administration, the Senior Executives 
Association, other good Government organizations have 
recommended modernizing civil service pay.
    TSO pay is a significant problem. There are other Federal 
employees whose pay is suffering as well because the General 
Schedule is not adequate to meet the needs.
    Mr. Correa. But I would say, Mr. Neal, given what these 
employees do, keeping us safe--we can talk about the border, 
the refugee crisis, major issue, no doubt. We can debate how to 
address that issue. But I will tell you, what we are guarding 
against at airports is individuals who have a goal and intent 
of bringing down one of our planes. Apples to oranges here.
    We have to make sure that these individuals are paid 
correctly so the turnover goes down so that we can remain safe, 
so to speak, on a day-to-day basis.
    Mr. Kelly, very quickly, couple of words on that.
    Mr. Kelly. Well, TSA has a finite amount of money to spend 
on all of its operations. We have issued some reports recently 
that have identified hundreds of millions of dollars that are 
not necessarily being spent as efficiently and effectively as 
possible.
    Mr. Correa. So you are talking about reallocation?
    Mr. Kelly. Yes.
    Mr. Correa. Mr. Lyttle.
    Mr. Lyttle. I think the locality adjustment is extremely 
important, and we have to look at what is happening in specific 
regions.
    The turnover in our region, in Denver and Nashville, is 
extremely high. The economy is really booming in the Puget 
Sound region, and it is extremely competitive there. We have to 
pay the TSOs a competitive rate so we can attract and retain 
them.
    Mr. Correa. Thank you very much.
    With that, I yield the remainder of my time. I will turn 
over and recognize Ranking Member Mrs. Lesko for 5 minutes of 
questions.
    Mrs. Lesko. Thank you, Mr. Chairman.
    What I have heard today from, I think, all of the panelists 
is that there is obviously a retention issue. Pay is one of the 
key factors.
    I want to say to any TSO that is watching, I do thank you 
for your service because you are protecting our Nation. So I 
know--I am old enough to know that pay is part of the 
satisfaction of someone's work, but also serving a greater 
purpose is also part of satisfaction. They are serving a 
greater purpose of securing our Nation and our airports.
    What I heard Mr. Neal say--and again, correct me if I am 
wrong--is that in some markets, TSOs are getting paid a decent 
amount, and in other markets where competitive pay is higher, 
they are not. That if you move to a Title 5 type of pay system 
that is old, antiquated, inflexible, so you could end up 
actually harming more than--than the status quo, in that some 
areas you need higher pay; other areas, because of the market 
influence, you know, you can get by with a lower pay. It just 
depends on what area of the country that you are in.
    One of the things that Mr. Neal brought up is that there is 
a--I think you said 9 months delay between the time a TSO 
applies for a job and when they actually get hired. Why does it 
take so long?
    Mr. Neal. It is a very lengthy process. It is many steps 
that includes computer-based training, it includes interviews, 
it includes a medical exam, includes a background 
investigation. All of those things take a very long time. The 
amount of time that TSA takes to do that, 270 days, you could 
give birth to a new employee in 270 days. It is far too long. 
We believe there are a number of actions they could take that 
could shorten that time considerably.
    It makes an enormous--it puts an enormous burden on an 
applicant who is wanting to be a TSO if they put in a job 
application and they don't hear anything on it and don't 
actually start work for 9 months. You tend to see lots of 
people just drop out of the process, because they need a job, 
and they are not going to take another job somewhere else and 
then just quit that one immediately to take the TSO job.
    So that 270 days is an enormous problem, and we do believe 
it could be shortened considerably.
    Mrs. Lesko. Thank you.
    Mr. Kelly, was that part of your recommendation, to 
decrease the amount of time between application and actually 
getting hired?
    Mr. Kelly. We did recommend that they improve their hiring 
process, yes.
    Mrs. Lesko. OK. Do you know if Administrator Pekoske is 
carrying out on any of these--that particular recommendation?
    Mr. Kelly. They have concurred with all of our 
recommendations.
    Mrs. Lesko. OK. All right. Well, hopefully if he is 
listening, they will work on that. Because I agree with you, it 
is kind-of crazy, if somebody needs a job, they are not going 
to want to wait 9 months, unless they are just independently 
wealthy or something and can live 9 months without pay, which I 
highly doubt.
    But in any case, I just want to make a last statement 
regarding the border security because that has come up. It is 
of concern to move TSA employees to the border, even though 
they did so voluntarily, is my understanding. But it just goes 
to show what a crisis we have down at the border. I mean, I 
have talked about this before. I am from Arizona, and so we see 
first-hand the border crisis that is coming before us.
    In fact, Yuma, Arizona, mayor texted me on my phone saying, 
OK, we have X number of people in our detention, you know, 
areas or charities, and we--we don't have enough capacity and 
that type of thing.
    So I have been on record before, as we need to get 
together, Democrats and Republicans, to try to do some 
immigration reform. I also think right now, because it is an 
emergency situation, they need more funding so we can deal with 
this humanitarian and security crisis there. Hopefully, then, 
we wouldn't have to bring TSAs over to the border.
    With that, I will yield back my time.
    Mr. Correa. Thank you, Mrs. Lesko.
    I now recognize the Chairman, Mr. Thompson, for 5 minutes 
of questions.
    Mr. Thompson. Thank you very much.
    Not only are we moving TSOs out of TSA, but we have two 
VIPR teams scheduled to go to the border, we have Federal air 
marshals scheduled to go to the border, as well as other TSA 
employees. If they are so valuable, why can we spare them to 
leave that valuable mission and go to the border?
    We have some 5,000 vacancies within CBP and other agencies 
along the border right now that have been vacant for quite a 
while. Nobody comes and says to us, we need to hire these 5,000 
people. Every time CBP or anybody has ever come to this 
committee and asked for help, we have been gracious. I think 
what I see now is the continuing manufacturing of a crisis to 
the detriment of TSA and some other agencies, which should not 
be.
    My challenge too, if I am good enough to be the lowest-paid 
employee in TSA but you are going to send me to the border 
working a higher-paid job, but you are going to pay me what I 
am making at the airport, something's wrong with that. You 
could pay me at the airport.
    That is my concern, is our rules allow us, if the TSA 
administrator will request an increase in pay in any of the 
supplementals or anything that come before Congress, I don't 
think anybody would turn it down. But we don't get the request. 
So it is not Congress not giving more money; it is the 
Department not requesting money for these workers that they say 
they love and appreciate and--and all of that.
    So I am as concerned about it, the pay, but I am more 
concerned that now we are putting airports at risk, 
potentially, as well as the traveling public in general by 
taking people away from airports and sending them to the 
border.
    Mr. Cox said he has not seen any strategy or not been 
consulted with his over 40,000 members, what they will be doing 
if they volunteer. I thank them for their volunteering. But you 
have to have a plan.
    I am not aware of any Member of Congress who has received 
anything in writing or a briefing from the Department as to 
what they propose to do along the border with these reassigned 
employees. So it is difficult to support something when you 
don't know what it is.
    I yield back.
    Mr. Correa. Thank you.
    I now recognize Mrs. Demings for questions, should she have 
any.
    Mrs. Demings. Thank you, Mr. Chairman.
    I am not sure I have one. One thing I do know is that we 
have got to bring some sanity back into this discussion.
    Our airports, our ports of entry, the safety of the 
traveling public--46 million of them traveled through the 
Orlando International Airport last year--the safety of the 
traveling public has to be a top priority. Robbing Peter to pay 
Paul, to take officers from our ports of entry to transfer them 
down to the Southern Border--we had the Secretary of Homeland 
Security here a short while ago, and I asked her about violent 
incidents at the border where CBP officers had been injured 
severely. She did not have the number. I would think if we had 
a crisis at the border to the extent that we keep hearing, she 
would know those numbers. So I then tried to make it easier by 
saying, well, how many Customs and Border Patrol officers have 
been killed in the line of duty. She first said 20 and then she 
said zero.
    We know at our ports of entry overwhelming number of 
narcotics come through our ports of entry. We know we have had 
very volatile, deadly situations at our ports of entry. So, 
yeah, we need to secure our borders. But you don't take from 
the most vulnerable areas or ports of entry in order to do 
that.
    So I just think we--you know, the talking points are 
wonderful, but we need to be really serious about our needs in 
terms of securing this Nation and particularly at our ports of 
entry. So I just had to say that.
    Back to Mr. Kelly. You talked about--we have heard about 9 
months that it takes--and even that. If it takes 9 months 
before an officer is ready for duty, we are going to further 
strain the workforce by sending them to the border. That just 
doesn't make any sense to me, and that is just this Member 
talking.
    Mr. Kelly, you talked about some recommendations that were 
made--and forgive me if you have already kind-of talked about 
how retention and recommendations that were made to improve on 
that process, but you also made some recommendations in terms 
of training, addressing some training issues.
    Mr. Kelly. That is correct.
    Mrs. Demings. Could you share with me how you kind-of 
prioritized those recommendations to the TSA?
    Mr. Kelly. We didn't prioritize them. We made 9 
recommendations. We thought they were all important to be 
implemented, and we expect all of those 9 recommendations to be 
implemented.
    Mrs. Demings. OK. Do you know where we are in that process, 
in terms of implementation?
    Mr. Kelly. Three of the recommendations TSA has 
implemented, so they are closed.
    Mrs. Demings. Which ones are those? Do you----
    Mr. Kelly. I can also tell, but I can't tell you right now.
    Mrs. Demings. But 3 have been implemented?
    Mr. Kelly. Three have been implemented, and we have closed 
them. The remaining 6 have been resolved, which means that TSA 
has recommended--or given us actions that they plan on taking 
that we believe address our concerns but have not yet been 
implemented.
    Mrs. Demings. OK.
    Mr. Kelly. So they have a plan to implement the other 6 
that they have not closed.
    Mrs. Demings. OK. All right. Thank you.
    Mr. Chairman, I yield back. Thank you.
    Mr. Correa. Thank you, Mrs. Demings.
    Any further questions, thoughts, comments?
    I want to thank the witnesses for their valuable testimony 
today and all of the Members here for their most important 
questions.
    Members of the subcommittee may have additional questions 
for the witnesses, and we ask that you respond to such 
expeditiously and in writing.
    Without objection, this committee record shall be kept open 
for 10 days.
    Hearing no further business, this subcommittee stands 
adjourned.
    Thank you very much.
    [Whereupon, at 11:24 a.m., the subcommittee was adjourned.]

                                 [all]
</pre></body></html>
